<html>
<title> - EXAMINING LOCAL PERSPECTIVES ON THE NO CHILD LEFT BEHIND ACT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
      EXAMINING LOCAL PERSPECTIVES ON THE NO CHILD LEFT BEHIND ACT

=======================================================================

                             FIELD HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN KING OF PRUSSIA, PA, MAY 14, 2007

                               __________

                           Serial No. 110-35

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                    U.S. GOVERNMENT PRINTING OFFICE
35-123                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                   DALE E. KILDEE, Michigan, Chairman

Robert C. ``Bobby'' Scott, Virginia  Michael N. Castle, Delaware,
Dennis J. Kucinich, Ohio               Ranking Minority Member
Susan A. Davis, California           Peter Hoekstra, Michigan
Danny K. Davis, Illinois             Mark E. Souder, Indiana
Raul M. Grijalva, Arizona            Vernon J. Ehlers, Michigan
Donald M. Payne, New Jersey          Judy Biggert, Illinois
Rush D. Holt, New Jersey             Luis G. Fortuno, Puerto Rico
Linda T. Sanchez, California         Rob Bishop, Utah
John P. Sarbanes, Maryland           Todd Russell Platts, Pennsylvania
Joe Sestak, Pennsylvania             Ric Keller, Florida
David Loebsack, Iowa                 Joe Wilson, South Carolina
Mazie Hirono, Hawaii                 Charles W. Boustany, Jr., 
Phil Hare, Illinois                      Louisiana
Lynn C. Woolsey, California          John R. ``Randy'' Kuhl, Jr., New 
Ruben Hinojosa, Texas                    York
                                     Dean Heller, Nevada


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 14, 2007.....................................     1

Statement of Members:
    Kildee, Hon. Dale E., Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     1
    Sestak, Hon. Joe, a Representative in Congress from the State 
      of Pennsylvania............................................     3

Statement of Witnesses:
    Abrutyn, Leslye S., Ed.D., superintendent, Penn Delco School 
      District...................................................     9
        Prepared statement of....................................    11
    Hershberg, Theodore, professor, public policy and history 
      director, Center for Greater Philadelphia, and Operation 
      Public Education, University of Pennsylvania...............    12
        Prepared statement of....................................    14
    Howell, Joe, principal, Norristown Area High School..........    16
        Prepared statement of....................................    18
    Kozol, Stephen, social studies teacher and department 
      chairman, Upper Merion Area High School....................    20
        Prepared statement of....................................    22
    Stevenson, Anthony C., incoming principal of Radnor Middle 
      School, Radnor Township School District....................     6
        Prepared statement of....................................     8


                    EXAMINING LOCAL PERSPECTIVES ON
                      THE NO CHILD LEFT BEHIND ACT

                              ----------                              


                          Monday, May 14, 2007

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:00 a.m., at 
Radnor High School, Radnor, Pennsylvania, Hon. Dale Kildee 
[Chairman of the Subcommittee] presiding.
    Members present: Representatives Kildee and Sestak.
    Staff present: Julius Lloyd Horwich, Policy Advisor for the 
Subcommittee on Early Childhood, Elementary and Secondary 
Education.
    Chairman Kildee. A quorum being present, the hearing of the 
Subcommittee with come to order. Pursuant to Committee Rule 
12A, any member may submit an opening statement in writing 
which will be made part of the permanent record. For those of 
you who are not on today's panel but would like to submit 
written testimony for the printed record of this hearing, you 
may do so by e-mailing it to Lloyd Horwich by the close of 
business Monday, May 21, to our Subcommittee Counsel. He will 
provide you with his e-mail address upon request. So we welcome 
any input that will be made part of the official Congressional 
record which becomes part of the documents we study and part of 
the archives of the United States.
    I am pleased to welcome the public and our witnesses here 
today for this hearing of the Subcommittee on Early Childhood, 
Elementary and Secondary Education, examining local 
perspectives on the No Child Left Behind Act.
    First of all, I would like to thank Superintendent Cooper 
and Principal Cannella for the use of this fine facility. I am 
Congressman Dale Kildee from Flint, Michigan, and I am Chairman 
of this Subcommittee. I have been in Congress now, this is my 
31st year. I am thinking of making a career out of it, though 
not sure, when I grow up.
    I am especially pleased to be joined by my friend and 
colleague, Congressman Joe Sestak. In a very short time, 
Congressman Sestak has become a strong voice in Congress on 
issues affecting our national security, small business and, of 
course, education. He sits right in front of me at the hearings 
there in Washington and he is there regularly. His attendance 
is--I think you've got perfect attendance so far, Admiral. 
Earlier this month, the House of Representatives passed a Head 
Start Bill that I authored to provide comprehensive early 
childhood education and developmental services for millions of 
low income children and their families. Because quality 
teachers are critical to a good Head Start program, Congressman 
Sestak introduced an amendment on the floor. He had amendments 
also adopted in committee. But an amendment on the floor to 
provide for loan forgiveness to Head Start teachers. His 
amendment passed with bipartisan support by a vote of 212 to 
107 and, hopefully, will become law soon. I also value 
Congressman Sestak's input as a member of this subcommittee on 
the reauthorization of No Child Left Behind. As Chairman, one 
of my priorities is to work with my colleagues, Democrats and 
Republicans, and educators in Washington and around the country 
to improve and reauthorize No Child Left Behind this year. That 
is the intention of George Miller, the Chairman of the Full 
Committee, and the intention of Edward Kennedy, the Chairman of 
the Senate counterpart Committee, so that probably will be 
done. Our country's success in the 21st century economy will be 
directly tied to our ability to continue to produce a high-
quality and educated people and work force. Inevitably that is, 
of course, directly tied to our ability to provide every child 
with a world class education. Since 2002, Congress and the 
President have underfunded No Child Left Behind by $56 billion. 
And the President's proposed budget for 2008 would underfund it 
by another $15 billion for a total of $71 billion. I have been 
in Congress a long time and that is one of the largest unfunded 
mandates that Congress has enacted.
    However, I am hopeful that with this year's new Congress 
and the budget resolution which we passed, that we will start 
to do better. The budget resolution calls for increased funding 
in education and in health. But funding is only part of 
improving No Child Left Behind. I expect that the law's basic 
structures, standards and testing, the disaggregation of data, 
adequate yearly progress or some form of that, which I am sure 
we will have great comments on that today, and the effects of 
not reaching AYP, I suspect that structure, talking to both Mr. 
Miller and Mr. Kennedy, will remain in place. But I am also, as 
are they, very open to suggestions of how we can improve the 
law. Some flexibility on the state and local level. And we are 
here in Pennsylvania to find out how you feel that law should 
be changed and please don't hold back. I am sure you will not. 
I have been talking to some of you out in the lobby. You have a 
great deal of knowledge and some very strong feelings on this. 
That is why I have held hearings in Washington on how No Child 
Left Behind has worked for English language learners, students 
with disabilities and in the area of supplemental educational 
services. And this is our fourth hearing outside of Washington. 
We have been to Michigan, California, Arizona and now 
Pennsylvania. And Field Hearings are important, not only for 
Congress to hear from those who work to implement the law day 
in and day out, but also because they remind us that this law 
was written on Capitol Hill and not Mount Sinai. And even on 
Mount Sinai, Moses did go up a second time. Sometimes that is 
called a motion to recommit but we recognize that all wisdom is 
not in Washington. The wisdom is out here in Pennsylvania, 
California, Michigan and Arizona.
    In Michigan and California we heard from superintendents, 
principals, teachers, parents and other experts. In Arizona we 
heard from Indian educators. Today's panels include an expert 
in school reform, a superintendent, two principals and a 
teacher. I look forward to hearing their perspectives on how No 
Child Left Behind has worked or has not worked and what we can 
do to make it work better. I am confident that their testimony 
will play an important role in the Committee's understanding of 
how the law has impacted not only Delaware, Montgomery and 
Chester Counties and other parts of Pennsylvania, but also 
places like them all around the country. And I look forward to 
working together with Congressman Sestak, along with my Senior 
Republican Member Mr. Castle, Full Committee Chairman Mr. 
Miller, and Senior Republican Mr. McKeon and all the members of 
the committee on a bipartisan reauthorization of this bill.
    I thank you very much for your presence here and I now 
yield to Representative Sestak for his opening remarks.
    Mr. Sestak. Thank you, Mr. Chairman.
    Chairman Kildee. Admiral, you are on.
    Mr. Sestak. Thank you. Is this on? I very much appreciate 
you, Mr. Chairman, being here today. I say that because I 
consider Mr. Kildee a mentor. As he says, he sits right behind 
me. I sometimes think about Sister Urbannet saying Heaven's 
down the road here, sitting right behind me, you know, to make 
sure I do things right. But I asked him early on if he would 
come up here to the district and a short time later he handed 
me a piece of paper and said would this date work out and here 
we are.
    Thank you so very much for that. Because I have learned in 
Congress that the most valuable thing I have is time and so, 
therefore, I know the most valuable thing the Chairman has is 
time. I thought commanding a carrier battle group with 15,000 
sailors in a war with 30 ships was demanding on time. It is 
nothing like this. You have so many things to do and for him to 
take the time out to come here, I am very touched. Thank you, 
sir.
    I want to thank, again, Dr. Cooper and Principal Cannella. 
This has been a great place to hold--this is a great place to 
hold it. Some of the students who are here came down and 
visited me in Washington and now they are sitting here in the 
audience. I think if there is anything that should be taken out 
of today is democracy works. It really does. This is the third 
education event that we have had. I am particularly taken with 
this one because it is formal. It will be in the record. It 
must be considered. The first two were education summits we had 
where George Miller had come up, Chairman of the Committee, Mr. 
Hinojosa had come up for Advanced and Higher Education. And as 
Mr. Kildee mentioned, out of that summit, three amendments were 
considered. They actually got to be part of the Head Start 
reauthorization and that is why I emphasize, this is not just a 
walk through. We listen. Clarence Tong and others are taking 
notes down here and we very much appreciate your input.
    I ran back then, as many people here know, on the themes 
that national security begins at home in the health, the 
education and the economic promise of our people. I saw that 
every day in the military. We were good because teachers, 
administrators, doctors, physicians took care of the youth to 
give us a very healthy educated individual. It is why I asked 
to be on the three committees that Chairman Kildee mentioned. 
Small Business, Education and Labor, Armed Services, and also 
two subcommittees on health. I am particularly taken that so 
many have responded and continue, after the summits we have 
had, to continue to give me input. They are all looked at and 
they are all reviewed.
    To the panelists, thank you for coming today. A number of 
you I have met for the first time but a number of you I have 
worked with before and I am very honored to have you here.
    This is another opportunity and a great one on No Child 
Left Behind which we will begin reauthorizing. I have always 
said over the past year, there is wonderful value in No Child 
Left Behind. But now to listen to those who are on the deck 
plates and working with it day in and day out, to have your 
input make a good idea be a great policy that can help you do 
your job better is what this is all about.
    So the topics we will go through will be how well is 
adequate yearly progress, the main accountability measurement 
we use considered by you on the deck plates. I am interested in 
hearing, again, the value that some seem to say that we need to 
consider what is called the growth or value-added models or 
testing, so that we are not just teaching to a test. Second, 
the consequences in interventions that are there presently for 
those schools that are determined to improve student 
performance. Are we doing it right? What should change? And 
then finally a topic that I know is dear to everybody's heart, 
even here at Radnor where there was an incident recently, is 
the feeling of school safety. I know just from my own 
background and 31 years in the military, if young men and women 
felt comfortable in what they were doing and in the environment 
they were in, they were able to be attendant to what we were 
talking to them about better than if there is a feeling of 
unease.
    And so thank you very much, Chairman, for hosting this 
today and I am very much looking forward to listening and the 
questions that will ensue afterwards.
    Chairman Kildee. Thank you.
    Mr. Sestak. Thank you for my time.
    Chairman Kildee. I generally say this wherever I go, is 
that, all of us like to see our published works and this 
hearing will be published, will be printed, and it takes a 
while to do that. We will get copies right away and the members 
will get copies right away but they become part of the national 
archives. So in a short time when that is done, have your 
Congressman send you a copy of your testimony here.
    I would like now to--first of all, all members of the 
committee will have seven calendar days to submit additional 
materials or questions for the hearing record.
    I would like now to introduce the very distinguished panel 
of witnesses that are here with us this morning.
    Dr. Ted Hershberg is Professor of Public Policy and History 
and Director of the Center for Greater Philadelphia at the 
University of Pennsylvania. In 1996, Professor Hershberg 
organized a consortium of 31 public school districts to work 
collaboratively on standards based reform. In 2000, he founded 
Operation Public Education to develop a new set of roles and 
incentives for K-12 education. OPE is now introducing its model 
for comprehensive school reform to education stakeholders 
across the nation. I will now yield to Congressman Sestak to 
introduce our other witnesses who are from his district.
    Mr. Sestak. Thank you, Mr. Chairman. I would like to first 
introduce Principal Stevenson. He will testify on the topic of 
school safety without disrupting the educational environment, 
which I spoke about as I closed my opening comments. He is the 
incoming principal of Radnor Middle School and currently serves 
as the assistant principal of Radnor High School. In his 
career, Mr. Stevenson has experience both as a teacher and as 
an administrator and has served in the Radnor School District 
as administrator for the past three years. His undergraduate 
degree is from South Carolina State University and Master's is 
from the Indiana University of Pennsylvania. We are glad to 
have you, Principal Stevenson.
    Dr. Leslye Abrutyn is the superintendent of the Penn-Delco 
School District for the last ten years. And she will testify 
and we have spoken about her thoughts and experience with 
growth models and differentiated interventions for schools not 
meeting the adequate yearly progress, the AYP. We are very 
pleased to have her. She holds a Doctor of Education Degree 
from Temple and she is a pioneer in recognizing the importance 
of the collection and analysis of data. One of the real bright 
spots, I think, No Child Left Behind can help us have. If you 
read her article, The Most Important Data, which was published 
nationally and internationally in educational leadership, you 
will see very much about what her ideas hold for us. She has 
also co-hosted All About Education, which is a weekly community 
radio show discussing various educational topics. Doctor, we 
are very pleased to have you here.
    The third witness here that I would like to mention would 
be Mr. Joseph Howell. He has been serving as the principal of 
Norristown Area High School since 2004 and he has served as a 
teacher and administrator in the Norristown Area School 
District since 1972. From 1979 until 2004, he has served as the 
principal of Stewart Middle School in Norristown. He holds a 
Bachelor of Science and Education from Pittsburgh and a Masters 
of Arts from Villanova University. And I think you are going to 
find his testimony quite compelling. I am glad to have you 
here, sir.
    Mr. Howell. Thank you.
    Mr. Sestak. And finally, the last witness I would like to 
introduce who will testify on differentiated interventions, 
what do you do when a school is not meeting the requirement set 
forth, is Mr. Stephen Kozol. And I am very pleased to have him 
from Upper Merion High School where he is the Department Chair 
of the Social Studies Department and where, obviously, he is 
serving as a teacher. But he is also President of the Upper 
Merion Area Education Association and brings a diverse 
background. Prior to entering the education field, which I 
always think is of value, where he served both at 
Pricewaterhouse and later as an attorney at Drinker, Biddle and 
Reath. He holds a Bachelor of Arts Degree from Brandeis 
University and a Law Degree from George Washington University 
Law Center and a Masters of Arts Degree and Certification in 
Secondary Education from West Chester University. We are glad 
to have you all here. Thank you.
    Chairman Kildee. Thank you very much. We want to welcome 
all our witnesses here today. For those who have not testified 
before this subcommittee before, I will explain our lighting 
system and the five-minute rule we have.
    Everyone, including members, is limited to five minutes of 
presentation or questioning. The green light will be 
illuminated when you begin to speak. When you see the yellow 
light, it means you have one minute remaining and when you see 
the red light, it means your time has expired, you need to 
conclude your testimony. However, there is no ejection seat 
there and no trap door, so if you are in the middle of a 
brilliant statement, I am not going to bring the gavel down. 
You may certainly finish up your statement.
    Please be certain as you testify to make sure your mic is 
turned on, turn on your mic and speak into the microphone in 
front of you and turn it off when you are finished.
    We will now hear from our first witness, Principal 
Stevenson.

  STATEMENT OF ANTHONY STEVENSON, ASSISTANT PRINCIPAL, RADNOR 
                          HIGH SCHOOL

    Mr. Stevenson. Good morning. Chairman Kildee, Congressman 
Sestak and other distinguished members of the Subcommittee on 
Early Childhood, Elementary and Secondary Education. I am 
pleased to appear before you today to testify on The Impact of 
Student Safety and No Child Left Behind. I would be remiss, 
however, if I did not also on behalf of the 1269 students at 
Radnor High School welcome you as well.
    Ever since the tragedy of Columbine High School, school 
districts have been working to address the question of how to 
keep our students safe at schools. The recent shootings of the 
Amish students in Lancaster and even the recent incident in our 
school here, in which a student brought a gun to school, have 
impressed upon us that school safety is a constant priority.
    Schools have a difficult task of ensuring that the school 
setting is safe on a daily basis. However, we also have to 
ensure that the school environment is not so overwhelming that 
true education cannot take place.
    The physical plant of a school building is the first area 
of defense for school safety. Most schools that were built 
before Columbine were not designed with adequate safety for 
doors, cameras, escape routes and other equipment that support 
school safety. As a result, schools were forced to redesign 
their buildings in a way that would improve the security of 
their buildings.
    However, the physical plant of a school is only one 
component of creating a safe school. The true way to create a 
safe school is through the school climate. School climate can 
be understood as the frequency and quality of interactions 
among and between staff, students, parents and the community 
throughout the school area. Research shows that schools with a 
positive and welcoming school climate increase the likelihood 
that students succeed academically and socially and help them 
disengage and avoid high-risk behaviors like substance abuse 
and violence. This type of climate can only be enhanced by 
having educators spend time designing prevention and 
intervention plans, well-organized crisis teams and maintaining 
clear lines of communication related to school safety among all 
appropriate stakeholders in the school community.
    According to the National School Safety Center, from a 
student's perspective, school climate depends upon and is 
affected by the following. Number one, school involvement. To 
the degree in which students are involved in and enjoy classes 
and extra curricular activities in school. Student 
relationships. The level of comfort students feel in relating 
to another and the ease in which to make new friends. Teacher 
support. The amount of help and care that teachers direct 
toward students. The physical environment. The extent to which 
the school buildings reflect the caring attitude of the school, 
the school buildings are clean, well-cared for, supervised and 
safe. Conflict resolution. Whether students are clear about the 
rules and feel that conflicts are resolved fairly and rules are 
consistently enforced. Participation in decision-making. The 
extent to which students, administrators and teachers share in 
making decisions about school improvement. Curriculum. The 
extent to which students feel that what is taught in classes 
meets their needs. Counseling services. Whether students feel 
counselors are accessible and able to help with personal 
problems, jobs and career information and concerns about drugs, 
alcohol and sex. Recreation alternatives. Whether students are 
satisfied with existing recreational activities and teachers 
support all of these activities. Personal stress. The amount of 
pressure students feel they are under and the resources they 
have to cope with.
    Here in the Radnor Township School District, we make all 
attempts to create a school climate that creates a balance of 
creating a safe setting while maintaining a strong academic and 
social atmosphere for our students. In Radnor, we have several 
programs that are included, but not limited to, a crisis 
management team that coordinates the plans for responding to 
violent and traumatic incidents on school grounds and various 
emergency drills. The district also works in conjunction with 
the Radnor Education Foundation in establishing a drug and 
alcohol task force that meets monthly to discuss drug and 
alcohol issues that impact our school community. They also 
provide various programs that address issues related to 
substance abuse. The Radnor Township School District also 
collaborates with local law enforcement officials to create an 
environment that welcomes officials into schools and allows 
them to be a part of our school culture. Each school also has a 
Student Assistance Program that identifies students at risk.
    Mr. Chairman and members of this committee, any school, 
whether suburban or urban, small or large, racially segregated 
or diverse, wealthy or poor, would benefit from an increase in 
additional appropriation funds to assist their schools in 
safety efforts. Additional funding would give schools an 
opportunity to provide an expanded version of intervention 
activities that I outlined. This support will also provide 
schools with the opportunity to create a culture that can 
provide a feeling of safety while providing an endless 
possibility of academic success for the students they serve.
    I thank you for your time.
    [Statement of Mr. Stevenson follows:]

   Prepared Statement of Anthony C. Stevenson, Incoming Principal of 
         Radnor Middle School, Radnor Township School District

    Chairman Kildee, Ranking Member Castle, Congressman Sestak and 
other distinguished members of the Subcommittee on Early Childhood, 
Elementary and Secondary Education, I am pleased to appear before you 
today to testify on ``The Impact of School Safety and NCLB.''
    Every since the tragedy at Columbine High School, school districts 
have been working to address the question of how to keep our children 
safe at schools. The recent shootings of Amish students thirty miles 
from here in Lancaster and even a recent incident in our school where a 
student brought a gun to school have impressed upon us that school 
safety is a constant priority.
    Schools have the difficult task of ensuring that the school setting 
is safe on a daily basis. However, we also have to ensure that the 
school environment is not so overwhelming that true education cannot 
take place.
    The physical plant of a school building is the first area of 
defense for school safety. Most schools that were built before 
Columbine were not designed with the adequate safety doors; cameras; 
escape routes; and other equipment that support school safety. As a 
result, schools were forced to redesign their building in a way that 
would improve the security of their building.
    However, the physical plant of a school is only one component of 
creating safe schools. The true way to create a safe school is through 
the school climate. School climate can be understood as the frequency 
and quality of interactions among and between staff, students, parents, 
and the community throughout the entire school community. Research 
shows that schools with a positive and welcoming school climate 
increases the likelihood that students succeed academically and 
socially, and helps them disengage or avoid high risk behaviors like 
substance abuse and violence.
    This type of climate can only be enhanced by having educators spend 
time designing prevention and intervention plans, well-organized crisis 
teams and maintaining clear lines of communication related to school 
safety among all appropriate stakeholders in the school community.
    According to the National School Safety Center (1990), from a 
student's perspective, school climate depends upon and is affected by 
the following:
    <bullet> Student involvement: The degree to which students are 
involved in and enjoy classes and extracurricular activities at school.
    <bullet> Student relationships: The level of comfort students feel 
in relating to one another and the ease with which they make new 
friends.
    <bullet> Teacher support: The amount of help and care that teachers 
direct toward students.
    <bullet> Physical environment: The extent to which the school 
building reflects the caring attitude of the school, the school 
buildings are clean, well cared for, supervised, and safe.
    <bullet> Conflict resolution: Whether students are clear about the 
rules and feel that conflicts are resolved fairly and rules are 
consistently enforced.
    <bullet> Participation in decision-making: The extent to which 
students, administrators, and teachers share in making decisions about 
school improvement.
    <bullet> Curriculum: The extent to which students feel that what is 
taught in classes meets their needs.
    <bullet> Counseling services: Whether students feel counselors are 
accessible and able to help with personal problems, job, and career 
information, and concerns about drugs, alcohol, and sex.
    <bullet> Recreation alternatives: Whether students are satisfied 
with existing recreational activities and teachers' support of these 
activities.
    <bullet> Personal stress: The amount of pressure students feel they 
are under and the resources they have to cope with it.
    Here in the Radnor Township School District, we made all attempts 
to create a school climate that creates a balance of creating a safe 
setting while maintaining a strong academic and social atmosphere for 
our students. In Radnor, we have several programs that include but are 
not limited to:
    <bullet> Each school has a Crisis Management Team that coordinates 
the plans for responding to violent or traumatic incidents on school 
grounds and various emergency drills.
    <bullet> The District works in conjunction with the Radnor 
Education Foundation in the establishment of a Drug and Alcohol Task 
Force that meets monthly to discuss drug and alcohol issues that impact 
our school community. They provide various programs that address issues 
related to substance abuse.
    <bullet> Radnor Township School District collaborates with the 
local law enforcement officials to create an environment that welcomes 
our local officials into schools and allows them to become part of our 
school culture.
    <bullet> Each school has a Student Assistance Program (SAP) which 
identifies those students who are at risk and implement programs that 
can help meet their needs.
    <bullet> Various sports and extra curricular opportunities for 
students to participate in.
    Mr. Chairman and members of the committee, any school, whether 
suburban or urban, small or large, racially segregated or diverse, 
wealthy or poor, would benefit from an increase in additional 
appropriation funds to assist their schools with safety efforts. 
Additional funding would give schools the opportunity to provide an 
expanded version of intervention activities that can prevent and reduce 
violence in our schools. By supporting the current and proposed safe 
school programs, schools will have the opportunity to maintain a safe 
school setting without disrupting the educational environment that is 
imperative to meet the requirements of NCLB. This support will also 
provide schools with the opportunity to create a school culture that 
can provide a feeling of safety while providing the endless possibility 
of academic success for the students they serve.
                                 ______
                                 
    Chairman Kildee. Thank you very much. Right in time. Good. 
Ms. Abrutyn, up here.

  STATEMENT OF DR. LESLYE ABRUTYN, SUPERINTENDENT, PENN-DELCO 
                        SCHOOL DISTRICT

    Dr. Abrutyn. Thank you. Thank you. Good morning, Chairman 
Kildee. It is an honor to be here with you, as well as with 
Congressman Sestak who represents our area so effectively in 
Washington.
    I am Leslye Abrutyn, Superintendent of the Penn-Delco 
School District. I am honored to testify today about the 
current AYP accountability measures and to offer my conclusion 
on whether they are too rigid to account for individual student 
achievement and improvement.
    I am in my 34th year as an educator and have served ten 
years as superintendent of the Penn-Delco School District. My 
goal as an educational leader is to find out the answer to the 
question everyone asks, what really works in education? I have 
some answers and the results of my school districts speak for 
themselves in answering that question.
    Here in Delaware County there are 15 school districts, some 
of them among the wealthiest in the Commonwealth. When these 
districts are compared by social economic standards, the Penn-
Delco School District ranks in the middle. Yet, our students 
far outscore their predicted berth according to social economic 
predictors. In some categories, instead of scoring seven out of 
15 school districts, we have scored at number two or three. 
Also, we are outscoring districts that spend up to twice as 
much per pupil as Penn-Delco.
    No Child Left Behind calls for 100 percent proficiency in 
2014. I am proud to say that this year, the third grade in one 
of Penn-Delco schools reached 100 percent proficiency in math. 
No other school or district in our entire county had 100 
percent proficiency in any other category at all.
    How can our success in Penn-Delco help with the 
reauthorization of No Child Left Behind? As with any successful 
organization, our success starts with a vision. My vision for 
Penn-Delco has been, in Penn-Delco we move every child forward 
every day. This is a vision I created more than a decade ago 
and still promote daily.
    How does one put this vision into action? We rely upon 
robust, current and accurate data on individual students. Over 
the years, as technology has permitted, we have gotten better 
and better at creating, compiling, analyzing and utilizing that 
data. This data and its successful use have been vital in 
allowing us to move every child forward every day.
    Contrast my vision with the practicality of what happens at 
most schools under the current assessment system. Most states 
use either a status model or a criterion-referenced model to 
assess students, which is not particularly helpful in 
describing the achievement level of individual children or in 
prescribing a plan to help improve student achievement.
    This is the limitation of the so-called status model under 
AYP. I hope my value to this committee today will be to 
describe in real terms what actually happens under No Child 
Left Behind.
    As in most districts, we spend a lot of time preparing 
students for and administering the state test. What do we have 
when the results come back? Disaggregated data, which in my 
opinion, has been very useful in motivating districts to look 
much more carefully at low-performing subgroups and has been 
the catalyst for much of the improvement we have seen across 
the nation. However, the disaggregated data from the current 
model alone is not enough to move every child forward every 
day. Disaggregated data is just one of the tools we use in 
Penn-Delco to assess and then guide instruction.
    We add an entire additional layer of assessment over the 
state assessment. That layer consists of a technology-based 
system that would be correctly defined as a growth model 
because it measures students periodically throughout the school 
year and provides robust, current and accurate data that 
describes needed areas of improvement for each student. Our 
practice of using this growth model is what has made us more 
successful than many other districts.
    Members of the committee, I propose to you that we have 
before us a strategic opportunity during this period of 
reauthorization of No Child Left Behind. Why strategic? Because 
in the truest definition of the term strategic, there are 
threats, as well as opportunities, before us. As you know, we 
are fast approaching the year 2014, the deadline for 100 
percent proficiency.
    In the early years of No Child Left Behind, there were 
significant and incremental gains in proficiency across the 
country. But the concept of a point of diminishing returns is 
becoming a reality. It is becoming increasingly more 
challenging to reach the lofty goal of 100 percent proficiency. 
This, I propose to you, is the threat. We are set up for 
failure.
    What is the opportunity before us? We can change from a 
status model of measuring achievement to a growth model and 
thus accomplish three significant things. One, provide robust 
data on individual students throughout the school year thus 
allowing all children to continually improve. Two, allow for a 
more realistic way to describe how districts are leaving no 
child behind. And three, provide more efficiency and 
effectiveness in student achievement.
    Thank you for the opportunity to share my thoughts and 
experiences with you this morning. I would be happy to answer 
any questions that you might have.
    [Statement of Dr. Abrutyn follows:]

    Prepared Statement of Leslye S. Abrutyn, Ed.D., Superintendent,
                       Penn Delco School District

    Good morning, Chairman Kildee, Ranking Member Castle, and other 
members of the subcommittee. It is an honor to be here with you, as 
well as with Representative Sestak, who represents our area so 
effectively in Washington, D.C.
    I am Leslye Abrutyn, Superintendent of the Penn Delco School 
District, in Delaware County, Pennsylvania. I am honored to testify 
today about the current Adequate Yearly Progress (AYP) accountability 
measures under No Child Left Behind (NCLB), and to offer my conclusion 
on whether they are too rigid to account for individual student 
achievement and improvement.
    I am in my 34th year as an educator, and have served 10 years as 
superintendent of the Penn Delco School District. My goal as an 
educational leader is, and has always been, to find out the answer to 
the question parents, educators, and legislators are asking: ``What 
REALLY works in education?'' I have some answers, and the results in my 
school district over the past 10 years speak for themselves in 
answering that question.
    In Delaware County, there are 15 school districts. When these 
districts are compared by socioeconomic standards, the Penn-Delco 
School District ranks in the middle. Yet, our students far outscore 
their predicted berth according to these aforementioned, and usually 
accurate, socioeconomic predictors. In some categories instead of 
scoring 7th out of 15 school districts, we have scored at number 2 or 
3. We are outscoring districts that spend up to twice as much per pupil 
as Penn Delco. No Child Left Behind calls for 100% of students scoring 
proficient in 2014; I am proud to say that this past year there was 
only one grade level, in one subject area, in one school, in one school 
district, in all of Delaware County where 100% of the students scored 
proficient on the Pennsylvania System of School Assessment (PSSA). That 
grade was the 3rd grade in Parkside Elementary School, one of Penn 
Delco's schools.
    How can our success in Penn Delco help you understand the 
intricacies and the consequences of the reauthorization of No Child 
Left Behind?
    First, I along with most educators applaud and support the goals of 
the law: to leave no child behind. We hold it as a point of personal 
and professional pride to be accountable for the job we do. But, we do 
not want to be, nor is it fair to be held accountable when there are 
multiple factors beyond our control.
    So, allow me to elaborate on how we have been successful and, on 
how you can reauthorize the law in a form that could replicate our 
successes for the benefit of all students in our nation.
    As with any successful organization, our success starts with a 
vision. My vision for Penn Delco has been, ``In Penn Delco we move 
every child forward every day.'' This is a vision I created many years 
ago, and talk about often. How does one put this vision into action? 
The successful implementation of my vision relies upon robust, current, 
and accurate data on individual students. Over the years, as technology 
has permitted, we have gotten better and better at creating, compiling, 
analyzing, and utilizing that data. This data and its successful use 
have been vital in allowing us to move every child forward every day.
    Contrast my vision with the practicality of what happens at most 
schools under the current system. Most states use either a status model 
or a criterion referenced model to assess students. This means that 
data on students is determined once per year. That data is then used to 
determine whether a school has met AYP. But, it is not particularly 
helpful in describing the achievement level of individual children, or 
in prescribing a plan to help improve student achievement. This is the 
limitation of the so called status model.
    How is this limitation addressed in Penn Delco? I hope my value to 
this Committee today will be to describe in real and practical terms 
what actually happens under NCLB. As a district, we spend a lot of time 
preparing students for, and administering the Pennsylvania System of 
School Assessment (PSSA). Contrary to some popular, but uninformed 
opinions on this subject, preparing for the test is not a bad thing. 
``Preparing'' means teaching students critical thinking skills, 
reading, and math. What do we have when the results come back? We have 
disaggregated data which in my opinion has been very useful. This 
aspect of the law has motivated districts to look much more carefully 
at low performing groups and has been the catalyst for much of the 
improvement we have seen in our nation.
    However, the disaggregated data from the current model alone is not 
enough to ``move every child forward every day.'' Disaggregated data is 
just one of the tools we use to assess and then guide instruction in 
Penn Delco. We add an entire additional layer of assessment over the 
state assessment. That layer consists of a technology-based system that 
would be correctly defined as a growth model because it measures 
students periodically throughout the school year, and provides robust, 
current, and accurate data that describes needed areas of improvement 
for each student. Our practice of using this growth model is what has 
made us more successful than many other districts.
    Members of the Committee, I propose to you that we have before us a 
strategic opportunity during this period of reauthorization of No Child 
Left Behind. Why strategic? Because in the truest definition of the 
term ``strategic'' there are threats as well as opportunities before 
us. As you know, we are fast approaching the year of 2014; the deadline 
for 100% proficiency. In the early years of NCLB there were significant 
and incremental gains in proficiency across our country. But, the 
concept of a point of diminishing returns is becoming a reality. It is 
becoming increasingly more challenging for schools to make those 
increases to meet AYP, and to reach the lofty goal of proficiency for 
every child in our nation. This, I propose to you is the threat. We are 
set up for failure.
    What is the opportunity before us? We can change from a status 
model of measuring achievement to a growth model. This shift in thought 
and assessment will accomplish three significant things:
    1. A growth model will provide robust data on individual students 
throughout the school year, thus allowing all children to continually 
improve.
    2. A growth model will allow a more realistic way to describe how 
districts are ``leaving no child behind''.
    3. A growth model will be more effective and efficient. You will 
recall how I described that we are required to participate in the PSSA, 
which is a status model assessment system, and how we supplement this 
data with our own in-house growth model assessment system in Penn 
Delco. If the reauthorization shifts to a growth model assessment 
system, the required standardized tests will be a more efficient use of 
time and resources. The data collected will be more meaningful and 
effective, because it will allow curriculum to be directed by the 
individualized needs of students, thereby helping students become more 
successful.
    Thank you for the opportunity to share my thoughts and experiences 
with you this morning. I would be happy to answer any questions you may 
have.
                                 ______
                                 
    Chairman Kildee. Thank you very much. And Dr. Hershberg.

 STATEMENT OF THEODORE HERSHBERG, PROFESSOR, PUBLIC POLICY AND 
    HISTORY, DIRECTOR, CENTER FOR GREATER PHILADELPHIA AND 
     OPERATION PUBLIC EDUCATION, UNIVERSITY OF PENNSYLVANIA

    Dr. Hershberg. Congressman Kildee, Congressman Sestak, 
thank you for the invitation. I am honored to be able to accept 
it.
    The best interest of our nation will be served by including 
growth models in the reauthorization of No Child Left Behind. 
They provide a much fairer way than the status model used in 
current law to measure the performance of schools that differ 
greatly across the socio-economic and demographic profiles. 
Second, these models produce unprecedentedly valuable 
diagnostic data to help teachers improve their instruction and 
to help principals deploy teachers more strategically. Third, 
they add a fair and accurate empirical component to improve the 
evaluation, remediation and compensation of individual 
educators, both teachers and administrators. Finally, because 
they provide a direct measure of teacher effectiveness, what 
students learn rather than an indirect measure, such as whether 
a teacher is experienced or certified, that can better identify 
highly-qualified teachers. I believe when historians record the 
history of school reform efforts at the turn of the 21st 
century, they will identify growth models as the most important 
analytic breakthrough of the era.
    I would like you to go to Figure 1a because the critical 
understanding here is to know what is the difference between 
achievement and growth. We have all grown up with the notion of 
achievement. That is how we expressed the learning results. So 
at a single moment in time on a vertical scale, we can show 
achievement 90, 70, 50. We could call it status. We can call it 
raw score. We can call it proficiency. The point is, where do 
our--on that vertical scale at one moment in time, is always 
best predicted by family income. Go to Figure 1b. Growth. We 
are tracing individual children, no longer cohorts. When you 
measure the student's progress from September to June, that 
progress is best predicted by the quality of instruction. That 
is why--in fact, it is 15 to 20 times more powerful than income 
or race or gender in predicting student progress. When Coleman 
and Jenks did their important studies that said schools are not 
responsible for the performance of kids, they were right 
because they were measuring it with achievement. But they 
didn't have the data sets and the technology we now have 
available that link the scores of kids on every subject and 
grade to the teacher or teachers who taught them. With this new 
technology in place, a whole new era opens up in American 
education.
    Now, let me use this distinction between achievement and 
growth to explain the shortcomings in AYP. So if you go to 
Figure 2, you will see a little matrix with four cells. 
Achievement is the vertical axis, growth is the horizontal 
axis. The bottom left-hand cell are schools that have both low 
achievement and low growth. They are doing a disservice to 
their children. They deserve to be sanctioned under No Child 
Left Behind. Go to the diagonal cell, the upper right. These 
are schools that are giving their children high growth and high 
achievement. The law is silent on these schools. To me this is 
the Tom Friedman cell. Raising the bar for everybody in the 
tense of global economy.
    The unfairness of No Child Left Behind is visible in the 
remaining two cells. In the upper left, our schools with high 
achievement but low growth. These are typically found in 
affluent communities. They come from good families, wealthy 
families, they have high test scores but they are not getting 
the academic progress they are entitled to. We call these 
schools slide and glide schools. Many superintendents from the 
affluent school communities are opposing growth because they 
fear they will be shown to be underperforming. And the second 
part of the unfairness of No Child Left Behind are communities 
that have children with--the schools give them high growth but 
low achievement. They have come to school so far behind, they 
do not know their colors, their numbers and their letters. The 
schools are growing them but because they are still not to 
proficiency, they are sanctioned. That is terribly unfair to 
those educators.
    The last thing I would like to say is that we put in place 
growth models where we trace individual kids and we have data 
now that links the scores. We now have, not only an enormously 
rich set of diagnostic data to help teachers improve their 
instruction, but we have the basis for the first time at the 
classroom level of evaluating individual teachers and 
administrators.
    And this, I submit, is the single most important 
breakthrough that we will face. There is much that is 
complicated. You got to pick the right growth models. There are 
a series of technical issues we don't have time to get into. 
But I urge you, you will end up with a vastly more fair system 
if we shift to growth models.
    [Statement of Dr. Hershberg follows:]

Prepared Statement of Theodore Hershberg, Professor, Public Policy and 
History Director, Center for Greater Philadelphia, and Operation Public 
                 Education, University of Pennsylvania

           the importance of including growth models in nclb
Introduction
    The best interests of the nation will be served by including growth 
models in the reauthorization of No Child Left Behind. They provide a 
much fairer way than the status (AYP) model used in NCLB to measure the 
performance of schools that differ greatly in their socioeconomic and 
demographic profiles. These models produce unprecedentedly valuable 
diagnostic data to help teachers improve their instruction and to help 
principals deploy teachers more strategically. They add a fair and 
accurate empirical component to improve the evaluation, remediation and 
compensation of educators, both teachers and administrators. Finally, 
because they provide a direct measure of teacher effectiveness--what 
students learn rather than an indirect measure such as whether a 
teacher is experienced or certified--they can better identify highly 
qualified teachers. I believe historians of school reform at the turn 
of the 21st century will identify growth models as the most important 
analytic breakthrough of the era.
1. The Difference Between Achievement and Growth
    Achievement describes the levels attained by students in their end-
of-year tests. Whether referred to as proficiency, status, absolute or 
raw scores, these points on a vertical scale at a single point in time 
are best predicted by family background (income and values about 
education) (see Figure 1a).
    Growth, in contrast, describes the progress made by each student 
over the course of the school year and is best predicted by the quality 
of instruction (see Figure 1b). Good instruction is 15-20 times more 
powerful than family background and income, race, gender, and other 
explanatory variables in predicting student progress or growth.
    When James Coleman (1966) and Christopher Jenks (1972) issued their 
famous studies concluding that the level of academic achievement is 
determined largely by factors beyond a school's control, they did not 
have the computer technology to permit the tracing of individual 
students over time nor the data sets to record their test scores in 
every subject and link this data to the teacher(s) who taught them
    With this new technology and growth models, we now have a fair and 
accurate way to include student-learning results in educator 
evaluation, remediation and compensation (discussed separately below).
2. Using Achievement and Growth to Understand Shortcomings in No Child 
        Left Behind
    At the heart of this problem is that AYP focuses on achievement to 
the exclusion of growth. The four cells in Figure 2 help us identify 
and understand AYP's deficiencies. Proficiency (achievement), high and 
low, is tracked on the vertical axis, while growth, high and low, is 
tracked on the horizontal axis.
    In the bottom left cell are schools that are clearly not serving 
the needs of their students--providing them with low proficiency and 
low growth--and thus deserve to be sanctioned.
    Schools in the top right cell are performing wonderfully. They are 
doing what we want all schools to do: provide their students with both 
high proficiency and high growth. I think of this cell as responding to 
the challenges Tom Friedman identified in The World is Flat. Yet NCLB 
does nothing to encourage schools to reach these goals other than the 
absence of sanctions.
    Schools in the top left cell are meeting their AYP goals--that is, 
they have high achievement--but low growth. Most often found in 
affluent communities where high-test scores go hand-in-hand with family 
income, these schools are often called ``slide and glide'' because they 
appear to be resting on the laurels of their students. It is important 
to understand that NCLB does nothing to hold these schools accountable 
for providing their students with the annual growth to which they are 
entitled. In a global economy characterized by fierce competition for 
demanding jobs that pay high salaries and benefits, this is a highly 
significant shortcoming.
    Schools in the bottom right cell create high growth, but low 
achievement. They have succeeded in academically ``stretching'' or 
``growing'' their students, but given how far behind these students 
were when they entered school, they have not yet been able to raise 
them to proficiency. These schools, while not bringing their students 
to AYP-required levels, are clearly helping students improve their 
academic performance, yet still face sanctions under current law.
    NCLB reauthorization should remedy the shortcomings I have 
addressed here by embracing the philosophy of growth: all children, 
regardless of whether they are low, average, or high achieving, deserve 
a year's worth of growth in a year. Schools should be rewarded or 
sanctioned based on this principle.
3. Growth Models Provide Invaluable Diagnostic Information and Enable 
        New Approaches to Educator Evaluation, Remediation and 
        Compensation
    In order to track student growth, states must have data systems 
that include a unique identifier for each student and each teacher and 
to record for every student the test scores in each grade and subject 
and the teacher(s) who taught them. NCLB reauthorization should mandate 
or provide incentives for states to develop such systems.
    When collected at the classroom level, the data have uniquely 
powerful diagnostic value that reveal the focus of a teacher's 
instruction (on previously low-, average-or high-achieving students) 
and the impact of their instruction (highly effective, effective or 
ineffective). When students have two or three consecutive teachers from 
the last of these categories, they never reach the absolute level of 
accomplishment they would have achieved had they had teachers from the 
top two categories. When principals are provided with these diagnostic 
data, they can deploy their teachers so that students are never exposed 
sequentially to ineffective teachers.
    Growth models can also make an important empirical contribution to 
teacher evaluation, remediation and compensation. As recent reports 
from RAND, the National Association of State Boards of Education and 
the Educational Testing Services (ETS) make clear, growth models can be 
used to identify the highest and lowest performers, but should never be 
used as the sole or principal criterion of teacher effectiveness. The 
data yielded by growth models should be used as part of a balanced 
system (inputs, or observation, and outputs, or student learning 
results), with multiple measures such as those contained in the 
sophisticated teaching frameworks developed by Charlotte Danielson 
covering planning and preparation, classroom environment, instruction 
and professional responsibilities, as well as appropriate safeguards, 
such as review panels composed of teachers and administrators, to 
ensure fair treatment for individual educators.
    The Congress should also add to the definition of a ``highly 
qualified teacher'' those identified as effective by growth models--
that is, the lack of credentials notwithstanding, the fact that the 
students in their classrooms are learning at appropriate levels should 
be sufficient to earn the ``highly qualified'' designation.
4. Fixing AYP Without Abandoning Proficiency Through ``Growth to 
        Standards''
    The essence of the ``Growth-to-Standards'' approach is to identify 
schools that are putting their students on growth trajectories to reach 
proficiency in the future and to credit these schools for that 
achievement.
    Schools could do this by using a growth model that converts the 
static achievement scores of their students to dynamic growth scores. 
If students currently performing below their AYP targets are on track 
to reach proficiency by the time they graduate, they would be counted 
among those meeting their AYP target in the current year. If a school 
were to place enough of these students on growth-to-standards 
trajectories, it could meet its AYP goal for the year. Using a growth-
to-standards approach, in other words, would reduce the proportion of 
schools failing AYP, but without abandoning the commitment to 
proficiency.
    This approach may be criticized for the same reason that the 
existing definition of AYP is criticized: it creates what many call a 
``perverse incentive'' for educators to focus like a laser beam on one 
group of students to the exclusion of all others: those close to but 
below proficiency. Schools choose to ignore students far below 
proficiency as well as those whose scores already exceed proficiency, 
the argument goes, because the prime directive in NCLB is for schools 
to hit their annual AYP targets.
    While this is clearly the logic of the incentive, we do not yet 
know if this is supported in fact. The growth-to-standards approach 
described above, like AYP, might simply illuminate the pattern--the 
gains made by those who start just below proficiency are coming at the 
expense of those who start the year above it--rather than exacerbate 
it.
    We know this pattern long pre-dates NCLB and has been widespread in 
poor communities, whether in inner-cities or Appalachia. It explains, 
for example, the observation made by elementary school teachers that 
the proportion of precocious students in kindergarten and first grade 
is sharply reduced by fifth and sixth grades. Faced with so many low 
performing children, the explanation goes, teachers focus on the bottom 
of the student distribution so that previous low-achievers get high 
growth while previous high-achievers get low growth. Sustaining this 
focus in the early years explains why so few high achieving, low-income 
children are found in middle school.
    When Dr.William Sanders applied his growth-to-standards approach to 
all Tennessee schools in the 2002-03 school year, he learned that 13 
percent more schools would meet their federal goals if this alternative 
means of calculating AYP were accepted by the U.S. Department of 
Education. But when Sanders looked more closely at its effects--he 
examined nine Memphis schools all of whose students were minority and 
low-income (on free and reduced price lunch)--he discovered some 
troubling results. While some schools met their AYP through the 
growthto-standards alternative without denying any of their students 
adequate yearly growth, others did so at the expense of students who 
had achieved at higher levels in the past. Seeing no sense in a trade-
off that benefits one group of poor minority kids at the expense of 
another, Sanders proposed a ``net'' approach: schools would receive 
credit for students placed on a growth-tostandards trajectory and 
debits for formerly higher achieving students denied adequate growth in 
the process.
    The U.S. Department of Education has given approval to Tennessee to 
use this approach in determining if schools meet their AYP goals. NCLB 
should provide incentives to expand the use of this model in other 
states.
6. A Cautionary Note: Not All Growth Models Are Equal
    This is not the place to discuss the complex statistical issues 
embedded in the use of different kinds of growth models, such as the 
``projection'' model used in growth-to-standards or the 
``expectations'' model used to evaluate the effectiveness of individual 
teachers. Some models that are described as ``simple and transparent'' 
are actually statistically flawed and will yield specious and erratic 
results. Suffice it to say that much attention must be paid to the 
details in order for growth models to be used fairly and effectively.
                              attachments
    Figure 1a: Achievement Figure 1b: Growth Figure 2: Identifying 
AYP's Shortcomings
    Appendix: Theodore Hershberg, ``Value-Added Assessment and Systemic 
Reform: A Response to the Challenge of Human Capital Development,'' Phi 
Delta Kappan (December, 2005). Paper prepared for the Aspen Institute's 
Congressional Institute, The Challenge of Education Reform: Standards, 
Accountability, Resources and Policy (Cancun, Mexico: Feb. 22-27, 
2005).
                                 ______
                                 
    Chairman Kildee. I think at this point it is time for the 
students to change classes, so we will take a two-minute break 
while they do that. Thank you, Dr. Hershberg. Thank you very 
much. Thank you for the chart, it is very interesting.
    Now, I want to thank the students, by the way, for your 
presence and for your great attention you have given to the 
hearing.
    Mr. Howell.

             STATEMENT OF JOSEPH HOWELL, PRINCIPAL,
                  NORRISTOWN AREA HIGH SCHOOL

    Mr. Howell. Thank you. Good morning.
    Norristown Area High School serves approximately 1,800 
students who come to us from the borough of Norristown, the 
Montgomery County seat, and the townships of East and West 
Norriton.
    According to a formula developed by the Philadelphia 
Inquirer Newspaper for its annual report card on the schools, 
Norristown is the most diverse public high school in the 
region. Currently we are in Corrective Action I after failing 
to meet AYP in one or more of the 12 reporting categories 
assigned to us for four years in a row.
    We are subject to the same penalties and interventions 
assigned to all schools with the same designation. We also 
received $9,500 in state and federal funds for the current 
school year because we are in Corrective Action.
    This morning I respectfully suggest to you that there are 
two ways in which the implementation of No Child Left Behind 
could be of greater benefit to me and of much greater 
consequence to my constituents, students, parents and the 
community.
    First, include a value-added reporting system. Value-added 
analysis is a statistical method used to measure the influence 
of a district and school on the academic progress rates of 
individual students and groups of students from year-to-year. 
PVAAS, Pennsylvania's value-added system, offers an objective 
and more precise way to measure student, cohort and subgroup 
progress. It also has a predictive component that is useful in 
helping to determine efficient employment of support resources.
    While I know how my students performed against the 
arbitrary 2005 to 2007 No Child Left Behind AYP targets, I do 
not know reliably how they should have performed.
    For example, I know that 60 percent of my total 11th grade 
population was advanced or proficient on the 2006 PSSA in 
reading. Is that a remarkable achievement on my part about what 
it should have been or did attending Norristown High do some 
students harm? Students who would have scored higher had they 
gone to school somewhere else. Without this additional data, 
the practice of comparing schools under the current system is 
invalid in my estimation unless all schools have the exact same 
student population. No Child Left Behind contains a school 
choice component based on the comparisons of schools created by 
the AYP designations. The presumption is that a student who 
scores at the basic level in a Corrective Action school would 
benefit from transferring to a school that has met AYP because 
it is a better school. If all of my students transferred to a 
school that has met AYP and all that school's students 
transferred to Norristown High, would the outcomes be the same? 
Do the schools we are compared to enjoy the diversity that we 
do and do their scores include significant subgroups as well?
    A value-added system ends that discussion and perhaps 
results in a more accurate account of student and school 
performance. Second, I encourage the Committee to consider 
adding a policy of differentiated reporting, consequences and 
interventions, particularly if a value-added system is not 
included in the new measure.
    In the school year 2005-2006, Norristown High met three of 
the four targets, reading, graduation rate and participation 
rate. While we met the overall math goal, we did not meet the 
math target for our four subgroups. Since 2004-2005, we have 
aggressively met the performance gap challenge through a 
variety of reform efforts. Through our partnership with the 
Panasonic Foundation, we have attained the services of the 
Institute for Research and Reform in Education and adopted 
their high school reform program, First Things First.
    We have received a Pennsylvania Project 720 grant and are 
in the second year of implementation. We have doubled the 
amount of time for English and math for our freshmen and 
sophomores and created our own quarterly testing in those two 
subjects. We have dramatically increased student access to 
technology-supported instruction through a Pennsylvania 
Classrooms for the Future grant and added an instructional 
enhancement team, in large part, thanks to our federal Small 
Learning Communities grant. We have eliminated tracking and 
study halls and created more sheltered learning opportunities 
for our ESL population and will be instituting a rigorous 
internship program in the fall. We have substantially improved 
the quality and quantity of our professional development, 
supervision and evaluation.
    Unfortunately, our Corrective Act I status overshadows our 
efforts. I propose that a school be able to request an amended 
No Child Left Behind status based on verifiable efforts to 
reform. This would allow for an accurate accounting of student 
performance while acknowledging that a school has employed a 
set of best practices in order to improve. Even a designation 
such Corrective Action I, school is actively engaged in an 
approved reform effort, would be a source of encouragement for 
students and teachers engaged in such an effort. In addition, 
consequences and interventions must be differentiated to 
account for the percentage of students tested who fall into one 
or more significant subgroups.
    I would also suggest that $9,500 is not going to move any 
school from Corrective Action to a more positive place.
    I would like to thank Congressman Kildee and Congressman 
Sestak for the opportunity to appear this morning and for 
providing our region with an opportunity to weigh in on these 
deliberations. Thank you.
    [Statement of Mr. Howell follows:]

              Prepared Statement of Joe Howell, Principal,
                      Norristown Area High School

    Mr. Chairman and members of the House Subcommittee on Early 
Childhood, Elementary and Secondary Education, good morning.
    My name is Joe Howell and I am the principal of Norristown Area 
High School in nearby Norristown, PA. Our school serves approximately 
1800 students who come to us from the borough of Norristown and the 
townships of East and West Norriton. According to a formula developed 
by the Philadelphia Inquirer newspaper for its annual Report Card on 
the Schools, Norristown is the most diverse public high school in the 
region: 47% African American, 38% white, 12% Hispanic, 62% free and 
reduced lunch. I have been a principal in the district since 1978 and 
have been at the high school since April, 2004.
    Thank you for the opportunity to appear before you this morning.
    In its current form of implementation, all 11th grade students at 
Norristown High spend three days in March taking the Pennsylvania 
System of School Assessment (PSSA) exams. During the summer we receive 
individual and school reports that provide us with sufficient data to 
identify individual student needs as well as the need for curriculum 
and program revisions. This data is also used to assign one of four 
categories of performance to our individual students: Below Basic, 
Basic, Proficient and Advanced in both reading and math. Student 
performance is further disaggregated into our significant sub-groups: 
Black, Hispanic, IEP and Economically Disadvantaged.
    In that same time frame, the reading and math data are combined 
with graduation rate and test participation information and a final 
score is determined for our school: we either met AYP in all twelve 
categories or we didn't.
    In our case, we have not and find ourselves in Corrective Action I 
after failing to do so four years in a row and subject to the same 
penalties and interventions assigned to all schools with the same 
designation. We also received $9,500 in state and federal funds for the 
current school year because we are in Corrective Action.
    This morning I respectfully suggest to you that there are two ways 
in which the implementation of NCLB could be of greater benefit to me, 
and of much greater consequence, to my constituents: students, parents 
and community.
    First, include a value added reporting system. Value-added analysis 
is a statistical method used to measure the influence of a district and 
school on the academic progress rates of individual students and groups 
of students from year-to-year. PVAAS, Pennsylvania's value added 
system, is a reliable measure of growth/ progress and is intended to 
serve as a complement to existing achievement measures to use for local 
decision-making as seen appropriate by the school district. Value-added 
analysis offers an objective and more precise way to measure student, 
cohort, and subgroup progress as the value schools and districts add to 
students' educational experiences. It also has a predictive component 
that is useful in helping to determine efficient deployment of support 
resources.
    While I know how my students and school performed against the 
arbitrary 2005-2007 NCLB/AYP targets, I don't know reliably how they 
should have performed based on their previous performance. For example, 
I know that 60% of my total 11th grade population was advanced or 
proficient on the 2006 PSSA in reading. Was that a remarkable 
achievement on my part, about what it should have been given the 
education the students received for the three years since their last 
PSSA, or did attending Norristown High do some students harm, students 
who would have scored higher had they gone to school somewhere else? 
Without this additional data, the practice of comparing schools under 
the current system is invalid in my estimation unless all schools have 
the exact same student population. If a school that has met or exceeded 
the AYP targets is underachieving and a school in Corrective Action is 
shown to have ``added value'', is the reporting system meeting the 
goals established by the law?
    NCLB contains a school choice component based on the comparisons of 
schools created by the AYP designations. The presumption is that a 
student who scores at the basic level in a Corrective Action school 
would benefit from a transfer to a school that has met AYP, because it 
is a better school. If all of my students transferred to a school that 
has met AYP and all of the receiving school's students transferred to 
Norristown High, would the outcomes be the same? Do the schools we are 
compared to enjoy the diversity that we do and do their scores include 
significant sub-groups as well? A value added system ends the 
discussion and, perhaps, results in a more accurate account of student 
and school performance. Including a value added system in the 
reauthorization of NCLB may be more acceptable nationally if school 
districts had the option of designating in advance whether to be rated 
on a value added or traditional system.
    Second, I encourage the committee to consider adding a policy of 
differentiated reporting, consequences and interventions, particularly 
if a value added system is not included in the new measure.
    For school year 2005-2006, Norristown High met three of the four 
targets: reading, graduation rate and participation rate. While we met 
the overall math goal, we did not meet the math target for our four 
sub-groups.
    Since the 2004-2005 school year we have aggressively met the 
performance gap challenge through a variety of reform efforts. Through 
our partnership with the Panasonic Foundation we have attained the 
services of IRRE (Institute for Research and Reform in Education) and 
have adopted their high school reform program, First Things First 
(small learning communities, family advocacy, curriculum and 
instruction professional development). We have received a Pennsylvania 
Project 720 grant and are in our second year of implementation (small 
learning communities, family advocacy, curriculum and instruction 
revision and dual enrollment). We have doubled the amount of time for 
English and math for our freshmen and sophomores and created our own 
quarterly testing in those two subjects. We have dramatically increased 
student access to technology supported instruction through a 
Pennsylvania Classrooms for the Future grant and added an instructional 
enhancement team (four instructional coaches) in large part thanks to 
our federal Small Learning Communities grant. We have eliminated 
tracking and study halls and have created more sheltered learning 
opportunities for our ESL population and will be instituting a rigorous 
internship program in the fall. We have substantially improved the 
quality and quantity of our professional development, supervision and 
evaluation.
    Unfortunately, our Corrective Action I status overshadows our 
efforts. I propose that a school be able to request an amended NCLB 
status based on verifiable efforts to reform. This would allow for an 
accurate accounting of student performance while acknowledging that a 
school has employed a set of best practices in order to improve. Even a 
designation such as ``Corrective Action I--school is actively engaged 
in an approved reform effort'' would be a source of encouragement for 
students and teachers engaged in such an effort. In addition, 
consequences and interventions must be differentiated to account for 
the percentage of students tested who fall into one or more significant 
sub-group.
    I would also suggest that $9500 is not going to move any school 
from Corrective Action to a more positive place.
    Finally, it has been my experience that the provisions of NCLB have 
had little or no impact on school safety and discipline in my school. 
While providing our diverse population with a safe and encouraging 
school climate remains a daily priority, the majority of the NCLB 
provisions have already been in place in our district for many years.
    Thank you again for the opportunity to appear before the committee 
this morning.
                                 ______
                                 
    Chairman Kildee. Thank you, Mr. Howell. Mr. Kozol.

     STATEMENT OF STEPHEN KOZOL, CHAIRMAN, SOCIAL STUDIES 
              DEPARTMENT, UPPER MERION HIGH SCHOOL

    Mr. Kozol. Thank you. Good morning.
    As Congressman Sestak indicated, I am a social studies 
teacher and department chairman at Upper Merion Area High 
School, where I, myself, graduated some years ago.
    Before I entered teaching, I was a practicing attorney for 
some five years. I became a teacher because I wanted to have a 
direct impact on tomorrow's youth, helping them to compete in 
and even lead the global economy of the future. Besides my 
Undergraduate Degree in American Studies, I completed an 
Undergraduate major in African American Studies and I care 
deeply about children of color who have been all too frequently 
left behind. I am also proud to say that I am the father of a 
first grader, who attends Upper Merion Schools, that I teach 
advance placement courses and that I have instructed a variety 
of courses at three universities. Finally, I am, as the 
congressman stated, the president of the Upper Merion Area 
Education Association and a member of the board of directors 
for the Pennsylvania Council for the Social Studies. I give you 
this background not to glorify myself. I do so to show that I 
have been part of what some commentators refer to as the real 
world, the world outside of schools.
    Let me state at the outset, I believe that NCLB was enacted 
with a core of admirable intentions. Like its supporters, I 
believe that as a country, we must ensure that all of our 
children receive a quality education. My concern is not with 
the existence of NCLB but rather with some of its side effects 
if you will. Because of these side effects, this well-
intentioned legislation has become what Stanford Education 
Professor Linda Darling-Hammond has accurately labeled a law 
that wastes scarce resources on a complicated test score game 
that appears to be narrowing the curriculum and uprooting 
successful programs.
    Let me give you some examples of this. I work very closely 
with English and math teachers in my building. This year, 
approximately one month before the state standardized tests 
were to be administered, one of these colleagues informed me 
that he would have to deviate from both the district's regular 
curriculum, as well as his own instructional methods, in order 
to prepare our students for the upcoming tests. In fact, 
curriculum is being rewritten all over Pennsylvania to reflect 
what is being tested by PSSA and even to coach students on the 
prompts they will face. Districts have even lowered themselves 
to giving students free breakfast, tee shirts and class trips 
in a disturbing effort to bribe them to take the tests 
seriously, since the results do not count toward their grades 
or graduation.
    I have also become aware of a new and troubling attitude 
toward social studies, history and any other subject that is 
not tested. We have entered a dangerous era of significant de-
emphasis with respect to those subject areas that do not have a 
test. While I sincerely believe this was not the original 
intent of NCLB, it is, in fact, exactly what is happening all 
over Pennsylvania.
    NCLB also concerns me greatly as a parent. My first grader 
truly enjoys and excels at school but I worry about whether 
this can continue with NCLB as it is currently written. Her 
classwork and homework are clear indicators that she is already 
being prepared to take the PSSA test in third grade, to the 
exclusion of numerous topics and skills I believe are critical 
to her intellectual and social development. This truly takes 
teaching to the test to the extreme but I do not in any way 
blame the teachers or administration of her school. Rather, I 
recognize that it is the inevitable and sad outcome of high-
stakes and standardized testing.
    Let me comment briefly about such testing and the 
evaluation of schools and school staff. I am neither a 
researcher nor a statistician but PSEA has researched the 
subject of growth, value-added models and has reached two 
significant conclusions. First, while they can serve as a 
better indicator of student academic growth, they cannot 
necessarily isolate the impact of teachers on student 
performance. Secondly, they can serve as signals but they 
cannot substitute for an in-depth, on-site evaluation by 
educational experts if the goal really is to meaningfully 
evaluate the performance and effectiveness of teachers.
    To me the bottom line is this. As an AP teacher, I 
acknowledge that standardized tests definitely have their place 
in education. But I must request that you revise NCLB before 
high-stakes testing takes over our schools. Instead, let us 
allow schools to be places where original thought and 
creativity flourish. Places that produce enthusiastic children 
ready to take on the world.
    As a final note, I ask you to consider the effect of high-
stakes testing on student and teacher morale. The current 
system makes it virtually certain that all public schools, 
including high-quality districts like mine, will inevitably 
fail AYP and become failing institutions. The consequences in 
the current law are virtually all punitive rather than 
supportive. I can tell you from first-hand observation that 
this can turn a positive, productive faculty, that is, in fact, 
succeeding, into a fearful and hopeless one overnight.
    Therefore, as you consider its reauthorization, please 
revise NCLB to make it less punitive and more supportive. 
Please focus those scarce resources we now have on and dedicate 
new resources to the districts that need them most.
    And finally, please help me and my colleagues reach our 
ultimate professional goal, to teach our children the best way 
we know how.
    Thank you.
    [Statement of Mr. Kozol follows:]

    Prepared Statement of Stephen Kozol, Social Studies Teacher and 
           Department Chairman, Upper Merion Area High School

    Good morning. My name is Stephen Kozol, and I'm proud to say I am a 
social studies teacher and department chairman at Upper Merion Area 
High School. I myself attended Upper Merion from Kindergarten through 
12th grade, a school district generally recognized as one of the best 
in our region. In fact, many Upper Merion teachers also attended our 
schools, and that is a tribute to their effectiveness, as well as to 
the loyalty of parents, students, and the surrounding community.
    After graduating from Upper Merion Area High School, I majored in 
American Studies at Brandeis University and received a law degree from 
George Washington University. Before I entered teaching, I worked for 
the accounting firm of Price Waterhouse, and for one of Philadelphia's 
most prestigious law firms, Drinker, Biddle and Reath.
    I decided to become a teacher because I wanted to have a direct 
impact on the youth of tomorrow. I wanted to help them compete in the 
global economy we know they will lead. Since I also completed an 
undergraduate major in African-American Studies, I also care deeply 
about children of color, who have been all too frequently left behind.
    I am also proud to say that I am the father of a first-grader who 
attends Upper Merion's schools, that I teach Advanced Placement courses 
at Upper Merion, and that I have instructed a variety of courses as an 
adjunct at three universities. Finally I should note that I am the 
president of the Upper Merion Area Education Association and a member 
of the Board of Directors of the Pennsylvania Council for the Social 
Studies.
    I give you this background not to glorify myself; I do so to show 
that I have been part of what some commentators refer to as ``the real 
world:'' the world outside of schools. I do so also to emphasize that I 
take my continuing professional development seriously, and so do my 
teaching colleagues, and that, together, we work as hard and do as much 
for our country as our counterparts in the private sector. Yet my 
colleagues and I are frequently denigrated as wanting to avoid 
accountability. That is a complete falsehood. In fact, teachers pride 
themselves on their accountability and responsibility every day. The 
belief that teachers do not want to be held accountable has been 
perpetrated in some sectors of the media as fact, and that 
misinformation has unfortunately been intensified by the law labeled No 
Child Left Behind.
    Let me state at the outset my belief that NCLB was enacted with a 
core of admirable intentions. Like its sponsors and supporters, I 
believe that, as a country, we must ensure that all of our children 
receive a quality education. My concern is not necessarily with the 
existence of NCLB, but rather with some of its ``side effects,'' if you 
will. Because of these side effects, this well-intentioned legislation 
has become what Stanford Education Professor Linda Darling-Hammond has 
accurately labeled ``a law that wastes scarce resources on a 
complicated test score game that appears to be narrowing the curriculum 
(and) uprooting successful programs.''
    Let me give you some examples of this. I work very closely with the 
English and Math teachers in my building. This year approximately one 
month before the state standardized tests were to be administered, one 
of these colleagues informed me that he would have to deviate from both 
our school board-approved curriculum, which is based on the latest 
education research, and his customary form of instruction, solely for 
the purpose of preparing our students to take the upcoming PSSA tests. 
In fact, curriculum is being re-written all over Pennsylvania to 
reflect what is being tested by PSSA, and even to coach students on the 
prompts that students see on the tests. Districts have even lowered 
themselves to giving students free breakfasts, T-shirts, and class 
trips, in a disturbing effort to bribe them to take the tests 
seriously, since the results do not count toward their course grades or 
even graduation.
    I myself am increasingly aware of a new and troubling attitude 
toward social studies, history and any other subject that is not 
tested. We are quickly entering an era of significant de-emphasis with 
respect to those subject areas that do not have a test. While I 
sincerely believe this was in no way the intent of NCLB, it is, in 
fact, exactly what is happening. What is more, it is not just happening 
in my district; I have spoken with numerous colleagues across 
Pennsylvania, and they all recount the same experiences.
    This law also concerns me greatly as a parent. My first-grader 
truly enjoys and benefits from school, but I worry about whether this 
can continue with NCLB as it is currently written. Her classwork and 
homework make it clear to me that she is already being prepared to take 
the PSSA test in third-grade, to the exclusion of numerous topics and 
lessons I believe are critical to the intellectual and social 
development of a young child. This truly takes ``teaching to the test'' 
to the extreme, but I do not in any way blame the teachers or 
administration of her school. Rather I recognize that it is the 
inevitable and sad outcome of high-stakes standardized testing--whether 
it is federally or state-mandated.
    The aspect of NCLB that most urgently needs revision is another 
cited by Darling-Hammond. She says, it ``has misdefined the problem. It 
assumes that what schools need is more carrots and sticks rather than 
fundamental changes.'' The law is based on the fallacious, and, 
frankly, insulting, notion that educators have been almost willfully 
doing bad things to children, and that the federal government can fix 
that alleged problem. Both assumptions are wrong.
    As I stated at the outset, teachers want to prepare young people as 
best they can for our world. They want students to have the best 
curriculum we can provide, not tests that often have little to do with 
today's realities. I have taught students who failed my course but 
received the top possible score on an AP test. Conversely, I have 
taught students who succeeded in my course but were disappointed in 
their AP score. The point is, tests are admittedly one valid measure of 
the academic success of both students and teachers, but they are only 
one measure. Good classrooms use many varied means to assess the 
progress and mastery of our students, and federal and state government 
should do the same with respect to our schools. After all, while 
standardized tests have their place in education, one might ask: how 
many students will face standardized tests when they go out in the 
world after school? Or rather, will they face real-life situations 
where they need to think critically and act and react rationally and 
responsibly?
    A brief word about testing and evaluation of schools and school 
staff: I am neither a researcher nor a statistician. But PSEA has 
researched the subject of growth/value-added models and has reached 
these two conclusions:
    <bullet> Growth/value-added models can serve as a better indicator 
of student academic growth. However, many of the foremost experts in 
educational measurement have written that growth/value-added models 
cannot isolate the impact of teachers on student performance.
    <bullet> Growth/value-added models can serve as signals, but they 
cannot substitute for an in-depth, onsite evaluation by educational 
experts if the goal is to meaningfully evaluate the performance and 
effectiveness of teachers.
    My bottom line is this: I urge you to revise NCLB before tests take 
over our schools. We do not want to turn out great test takers who will 
be helpless when they have to think through complex problems and 
situations. Instead we should allow schools to be places where original 
thought and creativity flourish, places that produce enthusiastic 
children ready to take on the world.
    As a final note, I ask you also to consider the effect of this kind 
of testing on student and teacher morale. The system, as currently 
designed, makes it virtually certain that all public schools, including 
high quality districts like Upper Merion, will inevitably fail ``AYP'' 
and thus be described as a ``failing institutions.'' The consequences 
in the current law are virtually all punitive rather than supportive. I 
can tell you from first-hand observation that this can turn a positive, 
productive faculty that is in fact succeeding into a fearful and 
hopeless one overnight.
    Schools do not need punishment; we need support. We need more 
relevant professional development for teachers, and solid mentoring 
programs for new and young teachers. We, as a nation, need to rely less 
on property taxes to fund our schools, because they discriminate 
against poor communities and those on fixed incomes.
    As you consider its reauthorization, please revise NCLB in a couple 
of critical ways. Make it less punitive and more supportive. Focus 
those scarce resources--and come up with new resources--on the 
districts that need the most help.
    Finally, let me and my colleagues do what we want so much to do--
teach our children the best way we know how.
    Thank you.
                                 ______
                                 
    Chairman Kildee. Thank you very much.
    We now will begin the questioning of the witness. I yield 
myself about five minutes for that purpose.
    Professor Hershberg, you mentioned the need for states to 
have quality data systems in place in order to implement growth 
models. Do you know how many states currently have such a 
system and what would the cost of implementing them be?
    Dr. Hershberg. I believe 15 states have committed to this. 
I am not sure if all 15 have everything in place and I do not 
have a dollar amount that you could attach. But, again, if you 
think of the iron rail that--you know, you would have one rail 
which is the unique identifier for every student, so you are 
really tracing individual children. And two, you need an 
individual ID number for a teacher and then you need to link 
these two files so that the teachers who teach the kids each 
subject and the grades are on the same record.
    Chairman Kildee. If we had the--just asking because one of 
my criticisms of No Child Left Behind is the underfunding. If 
we didn't have a $71 billion shortchanging, which is taking 
place, do you think we could develop that? Could that go a long 
ways in developing--helping these states develop growth models?
    Dr. Hershberg. I think unquestionably more money would 
facilitate the development of the data systems. But it has not 
broken the bank in the 15 states that are committed already. I 
do not believe the expense there is that substantial. I believe 
the resistance is more of a political nature than it is a 
funding nature.
    Chairman Kildee. And we do that for special education 
children, the IEP follows the child wherever they may go, so 
there is already a historical pattern for having the growth 
models follow the child.
    Dr. Hershberg. Absolutely right. Special ed has had this 
conceptually and operationally in place for a very long time. 
The very name, No Child Left Behind, and we are not tracing 
kids, we are doing cohorts. That is why this changes, so it is 
so indispensably important.
    Chairman Kildee. The one thing that has always bothered me 
is that we test the third grade in school and then the 
following year we test the third grade and find they may not be 
reaching AYP but it is different kids.
    Dr. Hershberg. Absolutely. It makes no sense at all. We now 
can do what we could not do before. We have the technology. We 
know how to link these files. We know how to analyze the data.
    Chairman Kildee. Mr. Kozol, you mentioned that tests are 
one valid measure but only one of students' and teachers' 
success. What are some other measures that we might include in 
No Child Left Behind as measures of success?
    Mr. Kozol. I am glad you asked that, Congressman, because 
as a teacher, I would not want to rely solely on a test to 
evaluate my students. As you know, we look at their work at 
home and their classwork and, perhaps, their writings, their 
research, their analysis of books. It seems to me that good 
assessment is part of good teaching and good assessment is also 
part of good evaluation of our schools. I do and I hope I was 
clear in my testimony that I think that tests should be part of 
it, standardized tests certainly can be. But we might also use, 
for example, portfolios and that is not just limited to written 
portfolios. Also art work and music, presentations, research 
projects, perhaps interviews of both students and teachers. So 
you have probably five or six right there that can be used. As 
I said, not necessarily excluding tests entirely.
    Chairman Kildee. Thank you. Dr. Abrutyn, can you elaborate 
on what a growth model would look like in a typical classroom?
    Dr. Abrutyn. Yes, I would. I would be happy to.
    There is a little bit of terminology that is associated 
with picturing what this is all about and it is terminology 
that really is central to the whole issue.
    The status model that we use today is most closely 
associated with what we call summative assessment, which means 
that students are tested at the end of the year, so we have a 
summation of what they have learned for the year and we only 
test them at the end.
    In contrast to that, the growth model is associated with 
what we call in education formative assessment, which means 
that we are testing students throughout the school year. And so 
teachers start off in a regular classroom, the teacher starts 
off at the beginning of the year getting a baseline picture on 
every child as to where that child is. And then there is the 
opportunity to test throughout the school year and test against 
benchmarks to see how that child is growing. And the teacher in 
the classroom has an idea of strengths and weaknesses and has 
the ability to adapt instruction throughout the school year. So 
that is what we call formative assessment. And in a classroom 
that uses that kind of instruction, there is a much greater 
likelihood that every child is going to be able to succeed. We 
are not waiting until the end of the year to find out that the 
child made it or did not make it. So that is what we are hoping 
to do with the growth model.
    Chairman Kildee. Thank you. Thank you very much for a very 
clear answer. I now yield to my colleague, Admiral Sestak for 
his five minutes.
    Mr. Sestak. Thank you, Mr. Chairman.
    Chairman Kildee. And I will come back for another round as 
I am sure he will too.
    Mr. Sestak. Thank you.
    May I follow up on that question? Do you also believe or 
not believe that it is not just throughout the school year but 
over the school years? Do you track the individual throughout 
the school years?
    Dr. Abrutyn. Thank you for asking that question. 
Absolutely. This was referred to earlier. The growth model is a 
model that has a lot of promise because we have the technology 
today to be able to follow students from the time they enter 
school throughout all of their educational years. And we can 
track them against a standard--there is a way to do this with 
standard numbers so that we see growth over time.
    Mr. Sestak. Do you presently do that?
    Dr. Abrutyn. We do in Penn-Delco. We use a technology-based 
system that is out there and it tracks the students using what 
is called a RIT score and this is an absolute number that grows 
with the child over the years.
    Mr. Sestak. You make a great statement in your testimony 
about test preparation and you are talking about a series of 
tests here. Would you speak to that issue and those that say 
tests take away from valuable teaching time.
    Dr. Abrutyn. What I was alluding to in my testimony is the 
fact that we do prepare students for the test and, you know, we 
are speaking here today in practical terms about what actually 
happens in school districts. And that in and of itself, as I 
said in my testimony, is not necessarily a bad thing. The test 
is about reading and math and writing, in Pennsylvania anyway, 
and those are things that we want kids to do. So when I say 
that we are preparing students, we are for the standards that 
are tested. But it is--the data that we get through the state 
test only gives us so much information and my suggestion is 
that we shift to a growth model, move away from the state test 
and go to a growth model where we are looking at individual 
students throughout their school career.
    The law is called No Child Left Behind, not no school left 
behind. When you look at the legislation or the way the tests 
are done today, we are getting information on a school as a 
whole, we are getting disaggregated data on groups of students 
and subgroups but we are not getting information from the state 
test on individual students.
    So what we are saying today is we have the opportunity to 
look at individual growth and the type of technology that we 
use in our school district does track the students individually 
and frequently and gives the kids the opportunity and the 
teachers the opportunity to teach.
    Mr. Sestak. And not to keep coming to you but if I could 
then--if you would answer this question, Dr. Hershberg, also 
but first, if you don't mind, superintendent is, the comment 
was made at the first education summit we had by a teacher that 
said that the present way we do testing, standardized testing, 
is that it appears to force the attention to be not on those 
who are highly proficient or those that are likely to fail but 
on that middle element that, just with a lot of focus and 
attention, you can get them over the cusp of passing. Is there 
something to that and is this part of the issue?
    Dr. Abrutyn. Absolutely. In my testimony, I referred to my 
vision for our school district, which is to move every child 
forward every day. So the idea is whether a child is at the 
highest level relatively speaking or the lowest level or in the 
middle, we want every child to achieve and to move forward.
    So the idea is that with the technology and the growth 
model, every child, when he or she walks in at the beginning of 
the year or the third month of school or the fifth month of 
school, we know where that child is and we are continually 
moving them forward.
    Mr. Sestak. Mr. Hershberg.
    Dr. Hershberg. Yes. The unintended consequence of No Child 
Left Behind is to create an incentive. As you just said 
correctly, to focus on those students who are as close to 
proficiency as possible, that if we get them over that hump 
will make AYP. So like a laser beam, we focus on those kids. 
Contrast that with the core philosophy of the growth model 
which says every child, regardless of whether they start the 
year below grade, on grade, above grade, is entitled at least 
to a year's worth of growth at a year.
    Mr. Sestak. If I might, Mr. Kozol, would you comment upon 
that with regard to the last series of questions with regard to 
some of the items that you had raised in your testimony?
    Mr. Kozol. Specifically in terms of test preparation, is 
that what you mean?
    Mr. Sestak. Overall the value attendant to switching from 
standardized testing to growth that would still have testing 
but you are able now to focus on the individual child and 
hopefully across the board and they will all be able with this 
differentiating data, be able to focus better upon them as you 
go forward with curricular whatever?
    Mr. Kozol. Well, once again, I want to caution you that 
statistics and growth-value models are not necessarily my 
expertise but I can tell you that we desire as educators to 
focus more on individual students rather than on individual 
tests. And I think one gets the feeling, you know, in our 
setting that with AYP as it is currently stated that the goal 
is to have the school and the school district and all of the 
individual subgroups satisfied. The tests, indeed, as I said, 
what happens is curriculum can be sacrificed because you--in 
fact, you said yourself, time is at a premium and that is 
certainly true in the school as well.
    So we would--I think the average teacher would certainly be 
in favor of any model that allows them to focus, not just on 
curriculum, but also the social and intellectual growth of the 
child more than on the test as of itself. I think we would like 
to see that, perhaps, the test as a means or any tester model 
as a means but not as the end.
    Mr. Sestak. Thank you. Mr. Chairman.
    Chairman Kildee. Thank you very much. Mr. Stevenson, you 
testified to the relationship between student stress and a safe 
school environment. What are the various sources of stress? It 
has been 42 years since I taught so I know things have changed 
a great deal. What are the sources of stress that students face 
and how has it changed over the years in your experience? I 
know you have not been around 42 years but in your own years.
    Mr. Stevenson. Well, one of the things when you talk about 
a school climate and in relationship to the school setting is 
that students bring a lot more of their social and culture 
dynamics into the school setting and it is not in the 
relationship to stresses at home. One of the biggest things 
that we are dealing with is the social component of the 
influence of their peers, in which they are--and so those 
dynamics that bring into the school is that the school's 
teachers and administrators now have to make a shift from being 
just a teacher but social workers to address those issues in 
relationship to whether it is financial issues that they deal 
with at home, it is the peer pressure or whatever the social 
dynamic is at home. Teachers are forced now to take care of 
those issues in the classroom and to create an academic and a 
social balance.
    So the whole concept of my testimony is that the school has 
to be a place where kids feel safe and they feel that when they 
come into school that the school is meeting some of those 
particular needs. That they are getting their appropriate 
counseling for those outside stresses. That they are getting 
the type of support in which to help them navigate their way 
through academically and socially.
    Chairman Kildee. In addition to the cognitive education, is 
there a value we should place upon--let me use the term 
although it is controversial at times--affective education 
where to help the student have a better feeling about him or 
herself where they can relate better to the process of 
education?
    Mr. Stevenson. Most definitely. I mean, a person's self 
concept is probably the best way to help them excel 
academically, socially and to inspire occupationally. When a 
student has a sense of hope, they have a sense of a drive to 
more forward. And if a school setting is in a place and they 
feel a climate where that is a place that helps them grow with 
their self-esteem, that is only an added component to their 
success.
    Chairman Kildee. Thank you very much. Mr. Howell, can you 
discuss the impact that the No Child Left Behind public school 
choice provision has? At the end of two years of not reaching 
AYP, you are a public school choice and the third year you 
would have supplemental educational services. Have many 
students used that? What has the effect been of the public 
school choice?
    Mr. Howell. Congressman, it has been very interesting. A 
school in our situation is required to contact the surrounding 
school districts and ask if they will accept our students as a 
part of the provision of choice and all of them annually say 
no. We at times wonder about that. We do have the extended 
opportunity, the after school programs that a growing number of 
our students are taking advantage of. But school choice per se, 
there is virtually no impact on my school
    Chairman Kildee. Is it because most parents or students 
want to remain in their own area or neighborhood or locale?
    Mr. Howell. Well, I would like to think in part that. They 
stay with us because they see the value in our school. But 
quite frankly, the other side of it is, there is no place for 
them to go.
    Chairman Kildee. So really it is very often more 
theoretical?
    Mr. Howell. Each of the surrounding school districts has 
the opportunity to say no to our question, will you accept our 
students, and they do.
    Chairman Kildee. Ms. Abrutyn, you talked about the law 
diminishing returns. I have experienced that in golf. I gave up 
golf. I reached the point where I was not getting any better. I 
had reached my peak. Could you talk a little bit about the law 
of diminishing returns?
    Dr. Abrutyn. Not in terms of golf but in terms of 
education, yes, I believe it is true. I think it was a lofty 
goal. I think we have to have high standards and I think the 
law, by setting the goal 100 percent proficiency, that was 
admirable. But as we try to approach it, I think we need to 
look for different ways of defining success for every child. 
And that is why I think the shift towards the growth model 
makes more sense because we can look at success in terms of 
individual children and if we--rather than 100 percent 
proficiency. So the shift would be towards looking at every 
child growing every year and setting a realistic goal for every 
child in terms of what that growth should be. And in that way 
we can assure that no child is being left behind but in a more 
realistic sense so that we are not labeling schools as failing 
when, in fact, they could have the opportunity to move the 
children forward.
    Chairman Kildee. Thank you very much. Congressman Sestak.
    Mr. Sestak. Thank you, Mr. Chairman.
    If I might, Principal Stevenson, do you find that students 
actually take advantage of your services or is there any data 
to say?
    Mr. Stevenson. Yes, yes, they do take advantage of it. In 
fact, at the middle school today, there is what they call an 
adolescent day where we have some--in conjunction and 
partnership with the Radnor Education Foundation, we are 
bringing in speakers talking about social and culture dynamics 
to help students navigate their way through. And what we do 
with that is that we have breakout sessions and then we have 
follow-up throughout the year, through the remaining year, and 
as they go to high school, through our SAP team to follow up on 
instances of drug and alcohol abuse and to look at those 
statistics. And we found that in some instances they have been 
very helpful.
    Mr. Sestak. Do you see any areas for legislative action, 
not just monies, funding to assist in the----
    Mr. Stevenson. I think that it has to be a balance between 
both. I mean, as I said, we at Radnor are fortunate to have the 
support of organizations like the foundation who have helped us 
with bringing those social issues. But those dynamics, those 
needs of kids to have understanding of how to improve their 
social and academic ways throughout society has to be a balance 
in places not only at Radnor but a place where I started off, 
Coleman Elementary in Baltimore. And so if there is a mandate 
that requires those types of things to be in place and the 
financial support to back it, all those kids would also have 
the same opportunities our kids have.
    Mr. Sestak. Do you find progress impeded at all or it is 
not the job of the schools with regard to the issue that there 
is a documented shortage of mental health workers for younger 
children and the lack to have them more readily available in an 
area where male parity has become more of a concern as we go 
forward? Is this an issue?
    Mr. Stevenson. Most definitely. I think that there has been 
in some places a resistance and then other places lack of 
funding. I mean, schools have to make choices. Whether you add 
a new teacher in relationship to make sure that you have 
covered the basic support so they make AYP or you bring in a 
social worker or a mental health expert to help with the 
dynamic needs of the school. And I think most schools would 
choose the academic issue because of funding. But if there was 
a clear understanding of the basic needs for the youth for 
mental experts to come help support their needs, I think that 
you find a correlation where kids are healthier, not only 
physically and mentally, you find the correlation between their 
academic support and success.
    Mr. Sestak. Thank you. Principal Howell, these are 
questions about special accommodations and alternative 
assessments for children that have identified learning 
disabilities has been something that we have listened a lot to, 
whether it is a hearing down in Congress or at previous 
education summits. And recently, the Secretary of Education has 
changed to three percent those that we might look at for 
alternative testing. Do you think this figure is sufficient to 
address this issue----
    Mr. Howell. Sorry, I interrupted.
    Mr. Sestak [continuing]. Or further adjustments need to be 
made and if so what are they?
    Mr. Howell. Quite frankly, I don't understand the notion of 
a Secretary of Education defining a number. Roughly 18 percent 
of the students that took the PSSA last year at Norristown High 
had a learning disability, IEP. We were permitted to test one 
percent of them in the alternate assessment based on a decree.
    Clearly, a definition of which students should be based on 
performance or based on their IEP, should be eligible to take 
the state assessment or the alternative assessment is 
attainable. At that point, we identify which percentage of my 
students qualify for the alternative assessment and administer 
it. We clearly would exceed the three percent.
    Mr. Sestak. If I might, the question I wanted to ask, I 
guess Dr. Hershberg, cohorts sizing, they differ throughout the 
nation. Pennsylvania, I think, is 40 for the size of the 
subgroup minimum. Texas is 200. Is this of concern as we--some 
say to be no more than 20. Is this a concern as you are trying 
to look at this nationally that we are impacting subgroups by 
the size of them?
    Dr. Hershberg. This is all part of a set of finding a way 
around AYP. Whether it is lowering the quality of the tests, 
whether it is backloading the progress rates, whether it is 
manipulating the size of the groups you are talking about. Any 
way to kind of stay away from the consequences of failing to 
meet AYP.
    Yeah, it is a concern.
    Mr. Sestak. Thank you. If I could then, Principal, I would 
like to get back to one other question. It is an interesting 
comment you made that you go around and ask another school 
district if they could take a student and every school district 
has a challenge. But my question is, what is the answer then? 
Should there be consideration, I mean, is it more SES focus? 
Some people say we should look at vouchers so that you can take 
them for private tuition. What does that do to your school 
budget then? What is the issue for this?
    Mr. Howell. Congressman, I think the most important point 
that I could make this morning is that you do not know the 
caliber of Norristown Area High School or any other school, in 
particular, based on the data that we collect in No Child Left 
Behind. And that in order to meet the goals of No Child Left 
Behind you need to. So in my proposal, if the data suggests we 
are failing, that ought to require a next step, to come in and 
see, in fact, if that is so. There are a lot at this point of 
recognized high school reform programs that are having a 
positive impact for which there is data to support.
    My point is you don't know based on the data that you now 
have.
    Mr. Sestak. So your answer and Dr. Hershberg's answer, when 
I hear some of these questions that are being asked like 
cohorts or having another school take a child, they are really 
symptoms of a disease. I mean, I don't mean to say--in other 
words, if you were able to have appropriate growth model 
testing, the fact of the matter is your school could 
potentially be better, as your testimony alluded to, than some 
school that is actually meeting the requirements. We just don't 
know.
    Mr. Howell. We absolutely believe that but talk is cheap. 
The value-added system would answer that question.
    Mr. Sestak. And so some of these--if we don't get the 
testing correct with the data, we will just be patchworking 
certain--a system that is on the whole not appropriate. And 
that is what I am hearing from here, correct? If I could then, 
I take a school--you know, you see that like up in Darby High 
School. Not to comment, they are--there are 43 different 
languages. I mean, it is just a couple miles down the road and 
there are 43 different languages spoken at that school. They 
are one of 15 relocation districts for the Justice Department 
in Pennsylvania. So they get 150 refugees every year that will 
come in and they get graded on and that is the challenge here. 
Should there be? And so as you begin to get the proper growth, 
it also seems you can not just have mixing with the growth 
model. Would it also be wrong to say, you just do not want to 
say those that are highly proficient? I mean, because you could 
still have some ranking at the end of the road, and those that 
are not making it, should there be a middle category of those 
that are trying or something? You know, briefly what I am 
getting at?
    Mr. Howell. Yes, it is very simple in concept. Is Radnor 
High School better than Germantown High School in inner-city 
Philadelphia? And the answer is----
    Mr. Sestak. In my district, absolutely.
    Mr. Howell. Right. And the answer is we don't know because 
the question should always be, how do you deal with the kids 
that you get. This is the--society deals the cards. Schools 
don't control who lives in their community. Under current law, 
if you live in an affluent community, you get high test scores, 
you look great. If you live and work in the inner-city, you 
have low test scores. That is a totally wrong way to understand 
and compare their performance in schools. How do you do with 
the kids that you get? Exactly what the superintendent said a 
moment ago, you see how they start the year, you measure them--
you can measure them in formative assessment throughout the 
year but certainly you want to know the growth over the year. 
Then you have leveled the playing field and you can say, we are 
a pretty darn good school because we grow our kids. They 
started well behind but we did a good job with them. They 
should not be sanctioned under current law.
    Chairman Kildee. Thank you very much. This has been--it is 
and will continue for a while yet. We are getting such good 
responses. I really appreciate this panel. This is why going 
out of Washington is extremely important for the Congress and 
that is, again, the reason why your testimony will be used as 
we reauthorize this bill.
    Superintendent Abrutyn, you testified that test preparation 
is not necessarily a negative, could you expand on that?
    Dr. Abrutyn. Yes. People will often say that it is bad. It 
has a negative connotation to teach to the test or prepare for 
the test. I maintain that if you look at the test, the test if 
about reading and writing, math. These are things that our 
students do need to know and that it does have critical 
thinking skills and the state standards, that is what is being 
tested. So we certainly want our students to be able to do 
those things.
    And I do maintain that in all of the different subjects 
that we teach in school, we need to be able to have kids read 
critically. It is more important today in the world that we 
live in, with the technology that we have, with the internet. 
Reading is back big time. You know, students need to read 
critically. They have unfiltered types of information on the 
internet, so we feel that these are very important skills. And 
we don't discount the types of things that are being asked on 
the state test. So I would like to balance that with people who 
are critics of the idea that we need to hold kids accountable 
and we do not, as superintendents by in large--no, we do 
believe that we should be accountable but we want to level the 
playing field. We want to have the proper opportunities. We 
want to have the proper funding. But we don't think that it is 
a bad thing or I would speak for myself personally, I think, 
and say that we do feel that kids should be able to do the 
things that are on the test.
    Chairman Kildee. Could you answer this, is AYP defective or 
just not as good as growth model?
    Dr. Abrutyn. I think that we have, as I said in my 
testimony, an opportunity to go to something that will serve 
all students in the nation better. And I think that the concept 
of AYP at this juncture--defective is a strong word but I think 
it is not doing what the spirit of the law says. No Child Left 
Behind means we want to move every child forward. We cannot 
tell that with adequate yearly progress because the unit of 
measure is a school and at best it is a subgroup. So there is a 
mismatch between what the spirit of the law is, which is to 
leave no child left behind. The unit of measure is the child, 
so there is a mismatch between the spirit of the law and the 
way we are measuring it. And we want to move to a growth model 
which is much more in conjunction with the spirit of the law, 
which is the growth model measures individual children. And 
then you have a true match between what the law is asking for 
and a way to truly measure that. And it gets us totally away 
from the idea of labeling schools as failing when they have 
been dealt the cards that Dr. Hershberg mentioned, you know, a 
very challenging group of kids or a very high socio-economic 
group. We don't deal with those things anymore. We are dealing 
strictly with the ability of the school to educate every single 
child and demonstrate that that child got a year's worth of 
growth in one year.
    Chairman Kildee. Dr. Stevenson, did you have some comment 
that--okay, again we will take a two-minute break for the 
students, and again, I appreciate the students being here, to 
go back to your regular class. Thank you very much. We will 
take a two-minute break. Okay, we will reconvene. It is very 
appropriate that we have these hearings, right, in an 
educational environment and with the people who are really so 
concerned with education. The Admiral and I were talking, this 
is just a great panel. It has been very helpful to us and we 
are carrying ideas, not just their written ones but some ideas 
up here we are carrying back to Washington. Dr. Hershberg, I 
was fascinated by your chart here, it is very interesting, and 
I love charts. My counsel here knows that. Can you discuss how 
Congress can reauthorize No Child Left Behind to help schools 
in that bottom left cell of your Figure 2, those who have both 
low proficiency and low growth?
    Dr. Hershberg. Well, you know, there is a perverse 
incentive debate that says if you give more money to failing 
schools, you are rewarding failure and if you take the money 
away, then you are punishing. How is that going to help the 
kids? So neither of those approaches are the way to go on this 
one. Those schools are failing and something has to change. 
Now, there are a variety of different comprehensive school 
reform models. In some cases, they might as well close the 
school or if not close the school, then reconstitute the 
faculty. The reality is that they are not providing the 
children in their community with the education to which they 
are entitled.
    So one solution that I would propose would be to have 
technical assistance teams that would be composed of 
outstanding teachers and administrators on a voluntary basis--
they could pay but they volunteer to be in the program. They 
are regionally based. They would parachute into a struggling 
school and they would be given the decision-making authority 
and the discretion to use the money on a per capita basis to 
turn that school around. So you are not putting the money in 
the hands of the same people that have failed but you are 
bringing needed resources, both intellectual and financial, so 
that children can benefit from the change.
    Chairman Kildee. You want to comment on that?
    Mr. Howell. I did, thank you. I would simply ask Dr. 
Hershberg to name a place where that worked.
    Dr. Hershberg. Well, we have very little evidence that has 
accumulated but in North Carolina, technical assistance teams 
are in place and they are getting some success but I think it 
is just beginning. We would use in Pennsylvania--take the 
regional, take the intermediate unit and have--if you can get 
high quality--what is the alternative is the question that I 
would put to that.
    Mr. Howell. I certainly support the concept of the 
technical support. And Pennsylvania does have the--I forget the 
term now--gifted scholar or something like that, experienced 
scholar--that are made available to school districts. I just 
have not seen any evidence where allowing those teams to make 
the decisions for those communities has had any positive impact 
at all. And, in fact, there is a sizeable school district, 
pretty close to where we sit, that is living proof that turning 
that over to the outsiders is not accomplishing much.
    Chairman Kildee. I thank both of you. Admiral?
    Mr. Sestak. Thank you, Mr. Chairman. Doctor, you wrote a 
book back in 1997 called, Introduction to Using Portfolios in 
the Classroom. Could you talk just a moment on what you mean by 
portfolios, so everybody gathers it and tell me, do you really 
think that we can do this and can it possibly be legislated?
    Dr. Abrutyn. That book was written in, I believe, about 
1997, so that was far before technology had the ability or we 
had the capability to do what we can do today. And the idea of 
portfolios just goes along with my vision, again, of moving 
every child forward and being able to understand where every 
child is and have rigid information. And today I think that 
portfolios have a place because we can store the information 
electronically and be able to document what the child has 
accomplished throughout the year.
    Mr. Sestak. Just to make sure we are on the same page, when 
you say portfolios, you mean?
    Dr. Abrutyn. When I wrote the book, it was talking about 
any type of information, reading or math, and it was storing 
samples and we still do this in our school district today. What 
we are looking at is we keep the portfolio through the child's 
career, so it is all another version of a growth model. It all 
ties together. And so I think there is a place for it. I do not 
know that we would necessarily have to legislate it and I think 
some of the components of the growth model that we talked about 
earlier this morning would suffice.
    But the idea that you have a portfolio of some sort stored 
electronically for children, so that we can see through the 
course of their career in a school district what kind of growth 
they have had and track it from year to year. It is very 
valuable. We do not want to have to start over every year with 
a new teacher and have the teacher wonder what they did the 
previous year. So I appreciate the question very much because 
we want to continue to keep going and not spin our wheels at 
the beginning of the school year.
    Mr. Sestak. Thank you. You know I joined the military 
during Vietnam and it was ranked 22 percent as far as the 
lowest of all 15 institutions the Gallup Poll does every year 
as far as respect. Now it is ranked number one and I went to 
Congress and it is ranked next to last. So we are working on 
it. But the point is I have not--whether it was in the military 
or the Congress, in both places and in government that I served 
in 31 years, people would throw bombs at us, government 
bureaucrats. I was always taken by how much, including, I mean, 
in Congress how hard they work.
    I feel the same way about the teachers and administrators. 
People say, well, you know, when you rank us as a failing 
school, it really does have an impact. And I can imagine that 
particularly if no one is taking your children and all. Could 
you both speak to that shortly because it is an intangible but 
having lived it in the military where people were not welcomed 
as they came home and even if people questioned politicians, 
would you speak the importance of this?
    Mr. Howell. Certainly I would be happy to. I mentioned the 
reform efforts that we began two years ago. Every teacher at 
Norristown High for the past two years has become a first-year 
teacher again. Nobody did last year what they did the year 
before. Now, we knew that we were not going to turn the scores 
upside down in one year but we worked awfully hard and by a lot 
of other measures, had a very good year. Yet we are a 
Corrective Action I. That is one step worse than we were last 
year.
    It is a frustration for the teachers. It is a morale issue. 
But it is also for the students as well because they also--I 
have invested in this reform and no one requires more immediate 
ratification than they do. So my proposal is simply that, while 
I do not want you to report my scores any differently. I am 
okay with that. But I want there to be a next step where 
someone comes in and takes a look to see which of those four 
quadrants of Dr. Hershberg's that we are, in fact, in.
    Mr. Kozol. Yeah, I agree with many of the things, in fact, 
that Mr. Howell is saying and I think that our building 
principals would probably echo that sentiment even though they 
may not be at the same stage of the AYP game.
    The reality is that as currently structured, all public 
schools will eventually be failing and that is a very sobering 
thought for us in this field. And that is what leads to the 
narrowing of curriculum that I spoke about in my testimony. The 
preparations that include things like free breakfasts and tee 
shirts and class trips, not that it is not great to take a 
class trip but not really for this purpose. The idea that a 
curriculum of a young child does not include social studies or 
science. You know, as a member of the Pennsylvania Council of 
Social Studies, I have been part of a debate which some of our 
directors have said to me, we need to have a test so that our 
subject will be taken seriously. To me, that alone indicts the 
law as it is structured very much.
    Mr. Sestak. Thank you. Again, I am taken by the word data 
all the time. When I visit various high schools whether it is 
Springfield or Upper Darby, the teachers all say this, good 
thing we have this No Child Left Behind. This data we will be 
getting to focus upon and here all the heads are nodding when 
you have done this. If you do not mind, Mr. Stevenson and 
doctor, to some degree if you go--say, well, wait a minute, I 
am not going to throw more money in the school system. That is 
just throwing more money down. The thing I have become taken 
with is--and I come from a background where we invested in our 
sailors but we held them accountable. It seems to me that data 
now has the ability for us to measure the value outcome of 
putting more investment in education. In other words, it is not 
just throwing monies to school boards, the superintendents, the 
teachers, you can actually measure what they are doing with it 
now because of No Child Left Behind has given us a data to 
measure. Is that a wrong way to think about this when people 
say you are just going to throw more money into this issue?
    Mr. Stevenson. I will speak from the school climate and 
school safety perspective but the data, it helps a lot and we 
are making a shift now academically but socially too to show 
the data. For instance, you know, in relationship to our drug 
and alcohol task force, data helps us to show that only the 
students and the teachers but the school community what our 
basic needs are and how--by implementing certain programs, how 
those things have helped address and bring a remedy to it. 
Socially, when you talk about kids who have had needs for 
substance abuse counseling, students who have had need for a 
mental health support and also look at the data relationship of 
the funding and the relationship that is required to keep the 
physical plant safer compared to pre-Columbine. Those kind of 
things are important to show that this is not just we need 
money, it is for the basic safety of our children.
    And I will just also talk briefly about the academic piece. 
The same thing in relationship to--because, you know, we are--
reality is No Child Left Behind is a part of our school setting 
and we are, as I say, we are slaves to the test and we have to 
make sure that we have incorporated all the necessary standards 
and the necessary supports to make sure that students have the 
best academic testing scores possible.
    Having said that, then we also show the data of saying, 
what things do we have in place that improved, what things that 
if we do not have them in place, if we had the appropriate 
funding, could help us improve those things?
    Mr. Sestak. Doctor, did you want to shortly add to that?
    Dr. Abrutyn. Yes. I think the question, and I appreciate 
the question, I think it has to do with, is it worthwhile to 
spend money on what it would cost to get this rich information 
to districts and I say absolutely yes.
    Mr. Sestak. It is yes but it is actually a little 
different. Is to some degree, is it also that if you have this 
data, you are now able to say to the person who is giving you 
the money, not just us or the taxpayer, wait a minute, I can 
show you if it is going to have value?
    Dr. Abrutyn. Yes, you are able to show that. And I think 
that some people might feel threatened by it, so I would say 
that it is all in the implementation of how you use it. And we 
have to be very careful about the implementation of using that 
data. It has the opportunity to be very motivating because it 
allows our teachers to have a roadmap and they find out they 
are being given extra tools to move kids forward, so that they 
have a better idea of how they need to structure their lessons. 
We actually use that data for the children. They find it 
motivating and they set their own targets, so they are very 
highly engaged in their learning. And our kids can tell you 
what their target is throughout the year. And parents, we are 
starting to let them use that information. They have access to 
the data, so that that is true parent involvement. So there are 
a lot of opportunities with this data.
    Mr. Sestak. I would like to ask you a question I asked you 
earlier but just before I did, the reason I am taking with it 
is, we all saw the Philadelphia Inquirer article about three 
Thursday's ago that was on the front page of the business 
section and it is not dissimilar to what I think we face in our 
district where we have lost 670 small businesses and the 
concerns with the workforce and attracting and maintaining 
people here. As it said, why have not we been as successful as 
we think we should have in the Philadelphia region of 
attracting the types of industries--we have been somewhat 
successful but not quite as full as we might. And it has always 
come back to the issue of education and that is what the 
business section said why this is such an important issue. But 
it brings me to another group, you go to the Pathway School in 
Montgomery County or the Easter Seals School. You sit down at 
the intermediate units in Montgomery County or Chester County 
or Delaware County and talk about the disabled and you listen 
to those in the summit that talk about the need to address this 
issue but at times the burden to address this for whether we 
should have teachers that are now having to be highly qualified 
teachers to teach the disabled. And now if they teach just not 
a core subject, they teach several subjects, they got to get 
qualified in each of those. What is the best approach somehow 
to make sure that these children do not fall through the seams 
because we will be better for it if they do not and yet I hear 
consistently that this is an issue for school districts. So did 
you want to address this kind of----
    Dr. Hershberg. We certainly welcome the issue of 
accountability with regards to all of our students, so those 
with our special needs, as well as our gifted and talented. The 
highly qualified issue that you raise is a serious problem in 
that area. We know what makes a good teacher of multiple 
handicapped students, for example, and just because that 
student or that child is 15 years old doesn't mean that he 
needs someone who is highly qualified in math, for example. And 
we, quite frankly, are going to face some serious issues 
because there is simply someone who can pass the math test is 
probably going to be a math teacher. Someone who can pass the 
science test is going to be a science teacher and finding and 
encouraging those people who want to work with special needs 
students, for example, we are now hindering them with the 
highly qualified label.
    Mr. Sestak. Mr. Chairman, May I just follow up with one 
additional question?
    Chairman Kildee. Sure.
    Mr. Sestak. But is there a better way--I can see you want 
to drive this and you can--to link the IEPs to No Child Left 
Behind or is there a better way to address or different way to 
address this issue by and large? Is this where you were going?
    Dr. Abrutyn. The question about highly qualified teachers--
--
    Mr. Sestak. Not just highly qualified. I mean the whole 
issue of the cohort group of disabled and the need to get them 
properly reaching out so that they are not left behind. Do you 
know where I am going?
    Dr. Abrutyn. Well, if you are talking about achievement 
levels for those groups----
    Mr. Sestak. Yes, and the correct measurement of them. You 
talked about one to two percent, but what is the criteria? Is 
it more towards the IEPs again or is it----
    Dr. Abrutyn. It truly is.
    Mr. Sestak. But yet if we felt as though it wasn't working 
right, I gather, when this legislation was passed. Is there a 
stronger link between IEPs?
    Dr. Abrutyn. The criticism was that you are trying to fit 
say a square peg into a round hole. The state test, for 
example, was not appropriate to measure their levels and, in 
some cases, there was an alternate test and some people were 
calling out for the IEP to be the sole measure. Their 
individual plan to be the sole measure of their progress.
    So I think it goes back again just to the growth model 
because special education children can be measured on a growth 
model as well as any other child. So the growth model would 
answer that question.
    Mr. Sestak. It is again back to the cause of the disease. 
Thank you. Mr. Chairman.
    Chairman Kildee. Thank you very much. Principal Howell, you 
mentioned Pennsylvania's value-added system. Could you describe 
this system and how it is used?
    Mr. Howell. Well, we do have access to it now and based on 
student performance over an extended period of time, 
particularly on standardized tests, we can measure that growth 
from year to year and as importantly we can predict it, so that 
I have not only a measure for myself but also the ability to 
identify students who might benefit from particular services 
that we have to offer.
    We have that right now for our students in third through 
eighth grade. I think we need one more year of that so that 
that will be applicable to our eleventh grade students as well. 
The issue is that while for us a PVA system is far more useful 
and a far better indicator of our performance. The No Child 
Left Behind, the AYP data tends to invalidate it. So that if 
a--we talked earlier about the people who were giving us money. 
If the people who are giving us money choose to say, we gave 
you all that money, you still did not make AYP. And my response 
to that can be, under the PVA system I can show you substantial 
growth for kids in third to eighth grade. I can show you 
quarterly testing and other things that shows it in high school 
and the answer always is, but the important score is AYP.
    So while we have these other things, we have the 
availability of them, we need to take the AYP scores off the 
altar and allow us to have the opportunity to use this other 
data as well.
    Chairman Kildee. Let me ask you this also, you testified in 
support of differentiated interventions. Can you explain what 
sort of interventions we could change No Child Left Behind to 
support in order to help schools implement systemic reforms?
    Mr. Howell. Again, Congressman, my position really is that 
you do not know based on the data that you collect. If, in 
fact, the data consistently says that Norristown Area High 
School is underachieving as a school, then that ought to be to 
somebody coming in and seeing if, in fact, that is true. And if 
it is true, the things that Dr. Hershberg talked about are fine 
by me. The things that our governor's commission suggested 
which includes coming in and removing me. That is okay with me 
too. I just want it to be based on a real assessment of our 
performance. I gave the PSSA test last year, the reading test, 
to 15 students who do not read English. Now, I knew what their 
score was going to be before I gave them the test. Yet when 
you--even though they are disaggregated in some reports, when 
you look at our scores, you see that a certain percentage of 
our kids did not score advanced or proficient. Hello? I knew 
that. So all I am asking--I am fine with the accountability. I 
am fine with the interventions. I just want the measure to be 
equal and to be relevant and then No Child Left Behind is fine 
with me.
    Chairman Kildee. Dr. Hershberg----
    Mr. Howell. Except for that high stake testing thing.
    Chairman Kildee. Thank you. Thank you, Mr. Howell. Dr. 
Hershberg, Pennsylvania has its test, the standards in this 
test, we have the state set their own standards and do their 
own testing. Michigan is changing from what is called the MEAP 
test. So each state, and they vary. Pennsylvania, 
Massachusetts, Michigan, I think, has set pretty high standards 
for itself and pretty tough tests for itself. Some states have 
lower standards and easier tests, so that creates a little 
confusion when people compare schools in various states. Should 
we somehow not use the NAEP test to test the students but use 
the NAEP test to see whether the state tests have reached a 
certain standard or level of----
    Dr. Hershberg. Congressman, that is a critically important 
question. The coming crisis in education is that even when 
students graduate from high school meeting the proficiency 
standards set by their state, they are almost everywhere, there 
are several exceptions, falling well short of what is now 
required for success. After high school, that is whether you go 
into the military, whether you go into higher education or 
whether you enter the workplace, there has been a convergence 
of the requirements for success and the gap between what kids 
are leaving at proficient levels and this reality. That is the 
coming crisis.
    I think all but three states have standards well, well 
below NAEP. The rough averages--you will see twice as many kids 
proficient on their state tests as on the NAEP. The range--the 
latest NAEP data show that only between 27 percent and 35 
percent of fourth and eighth graders in all tested subjects are 
proficient or higher in the United States of America.
    Now, I would much prefer the NAEP standards [tape cut off] 
by states in my mind are how much failure will the tax paying 
public tolerate. That is the legislature's question. They are 
fearful. But the NAEP standards themselves are not set in a way 
that meets the crisis I just alluded to at the beginning.
    We ought to be asking--instead of asking a set of experts 
what their professional judgment is, let us set the tests that 
cut scores here, we should be going to those three arenas, the 
military, the workplace and higher education and say, what do 
kids need to graduate with to succeed in these three arenas? 
That is the way we should be doing this in the future. But if 
we do not speak to it right now, we are going to be in a deep 
and deeper hole because the state standards are watered down 
and totally inaccurate in terms of what is required for success 
in today's world.
    Chairman Kildee. Should we use the NAEP, the National 
Assessment of Educational Progress--should we use NAEP to test 
the students or to test the test?
    Dr. Hershberg. I think we need a better way. I think we 
need better tests and I also believe that this nation, as an 
issue of national security, is going to have to come up with 
national standards. Because what we have done with No Child 
Left Behind is create an enormous incentive to lower the bar. 
It is a race to the bottom.
    Chairman Kildee. Mr. Howell, you had a comment on that?
    Mr. Howell. Congressman, the problem with using the NAEP 
for anything is getting kids to take it seriously. We struggle 
to convince them that the PSSA test that they are about to take 
has a potential lifetime impact on them. And so with tee shirts 
and breakfasts and all those things, maybe we get them to do 
that. And then in a matter of months later we give them the 
NAEP and say, here this is real important too. They do not buy 
it. So I do not know that I would use the current NAEP results 
for anything.
    Chairman Kildee. Could we use NAEP though to test the test 
to see whether the--I mean, we do know certain states have 
very, very--well, they have lower standards and easier testing. 
Could we use NAEP to test the test to see and at least report 
whether this state--and I know Pennsylvania, I know Michigan, 
Massachusetts have high standards and a good test. Some are 
rather old. Could we use NAEP to test the test to see how that 
state stands in relation to other states?
    Mr. Howell. And I would say no.
    Chairman Kildee. You would say no, all right. Very good.
    Mr. Sestak. Thanks, Mr. Chairman. I thought this last 
discussion was extremely important. I really loved your comment 
on national security. Everybody thinks national security is 
about defense. They just do not understand true national 
security. It is how well educated and healthy our individuals 
are. And this is what this is all about. The value of No Child 
Left Behind is that it has become an ongoing debate about 
education. Not like Sputnik that did it for two or three years. 
This will go on for a long period of time. And it is why, it is 
just not my district but these inner-city ones, they are all 
part. It is a globalized world. It is certainly a globalized 
Philadelphia region. It is so important. I go down to Acker 
Shipyard. They cannot even find 180 tig welders. They import 
them from the Gulf Coast because we do not have the training 
attendant to the kids. Jerry Parker, President of Delaware 
Community College says I trained a couple hundred, I cannot get 
the skilled force to come and learn how to do mig and tig 
welding because you do not flop your helmet down, light an arc 
and lay a bead like 40 years ago when I had the HDs. But you 
now sit at a computer and have to lay that metal fabrication 
bead out, you have to have a higher level of education in 
science. This is not about going to college. This is about 
doing high-value manufacturing, the artisans skills and 
everything. So your points are very well taken and I am sorry 
to go on here. It is why next week we will have an education 
summit, another one. After our first two--this can be an 
economic development summit. After our first two education 
summits, we had the first on the economic summit. We train kids 
or educate them, not just out of curiosity, but then provide 
quality of life. And I think your concept of the workforce and 
businesses, small business community to understand what is 
attendant to what they need.
    And I am sorry to go on but I thought this whole point is 
so important. Could I ask you a question on violence and come 
back to you, that you do not mind, you know, giving your test 
scores out. But we have heard in testimony that schools are 
loathe and districts are loathe to report the real violence 
that occurs.
    And so, therefore, we really do not have a grip upon that 
and there are lots of stats and studies that show that. Is 
there something to that and, if so, what do we need to change 
that? What is the criteria for what we call violence and there 
is study after study that shows that this is a significant 
issue. Yes, sir.
    Mr. Stevenson. I think, first of all, in our district we 
are very open and clear with the annual state reporting for 
violence report that is required each year. But I think the 
larger question in relationship of schools reporting violence 
is some schools, who do not have the resources in order to keep 
their schools safe and secure, they sometimes may or may not 
report some things based on perception or some of what the 
media will report.
    Mr. Sestak. Because it makes the school less attractive?
    Mr. Stevenson. Well, it makes the school less attractive 
and I think there is an unfairness in relationship to how you 
view certain schools. I think that certain schools, depending 
on where they are located, whether it is urban, rural or 
suburban, get more attention than the others. And so, I think 
that the bigger question is how do we know one, ensure that all 
schools have safe facilities, they have the safe training on 
safety and then talk about what do you do when a school reports 
the violence.
    Mr. Sestak. I understand.
    Mr. Stevenson. Because I think that is the bigger thing. 
When a school----
    Mr. Sestak. Although if you----
    Mr. Stevenson [continuing]. Board says the issue----
    Mr. Sestak. Excuse me for interrupting. But if you do not 
have the data, you may not understand the depth of the 
resources needed.
    Mr. Stevenson. Well, I agree with that. You have to have 
the data but, you know, there has to be a balance with 
reporting that data and also--so when a school reports that we 
have a high level of incidents of violence, do we then say to 
them they put them on this list or then we have intervention 
support to make it better.
    Mr. Sestak. Do you have just a quick comment on that?
    Mr. Howell. I agree completely. It is not the collection of 
the data, it is what you do with it.
    Mr. Sestak. But the studies seem to show we do not get the 
data.
    Mr. Howell. But that may be why. Two years ago our pupil 
services guy called me in a panic because he was doing the 
report and it looked like we were one felony over the line. 
That is an absurd way to think about it. We do what we need to 
do to serve our population and there are times that that means 
asking the police to support that. I am proud of that. I am not 
embarrassed about it. But if, at some point, that is going to 
get me put me on the bad guy list, then maybe the next time I 
report one less felony or I call the police one less time.
    Mr. Sestak. One last question. I think I am out of time. 
Can we--actually that is fine. You have kind of actually 
answered my question which is already--can we really achieve 
100 percent proficiency in our students? Again it goes back to 
the growth model, correct? Am I answering my own question?
    Dr. Abrutyn. 100 percent proficiency would be measured 
against a state test, for example, so if it is a standardized 
test that has a finite number of questions and right answers or 
wrong answers and every child has to take it and that score is 
what gets reported and that is the status model. And we are 
saying that by the year 2014, every child is going to get 100 
percent of those questions correct. And that is the concept 
that we are doomed to failure on because it is just not 
possible.
    It is a lofty goal and it is a high goal and it was 
admirable but we just will not get there, everyone knows it. So 
we are saying instead that the growth model is a different and 
better way to go because it will let every child grow every 
year. And we will have a target that is realistic and we want 
every child to grow every year. And we have a more realistic 
way to do that now. And even more so because we have the 
technology that we did not even have when the federal law went 
into effect. Technology is at a place where we can actually do 
this today.
    Mr. Sestak. Thank you.
    Chairman Kildee. I am going to ask this question. I 
probably should have asked it earlier so you could think about 
it but what would be the most important single change? And if 
somebody has already mentioned, you want to mention another 
one, you can do that but the most important single change we 
could make in No Child Left Behind that would move us in the 
right direction. Congressman Sestak or Congressman Kildee, what 
would you recommend? We will start down here and move down the 
line. Mr. Kozol.
    Mr. Kozol. I was hoping you were going to ask that 
question, Congressman. There are a number of things, as I have 
indicated, that I think I would change but if I had to pick 
one, it would be to change the nature, the structure of the law 
from a punitive one to more of a supportive one.
    I think that that is what it really comes down to. I mean, 
whatever you are going to use, whatever model you are going to 
use to measure success, whether it be AYP or whether it be a 
growth model, I think there is too much to be gained on behalf 
of our children, not to mention the educators, by being in a 
educational institution that is supported and does not live in 
fear of failure. Especially where we have so many public 
schools that are, in fact, succeeding but are distortedly 
painted as failing because of the current structure of the law.
    Chairman Kildee. Mr. Howell.
    Mr. Howell. And that was stated eloquently. The only thing 
that I would add to that is that we need a way to acknowledge 
that many of the things that our public schools are called upon 
to do to enrich the quality of life for our students and things 
that we do well, do not fit on a standardized test.
    Chairman Kildee. Dr. Hershberg.
    Dr. Hershberg. I would like to begin by saying the notion 
that before No Child Left Behind, we had a really terrific 
public school system and this terrible federal law came in and 
screwed everything up is an absolute misstatement of reality. 
As flawed as No Child Left Behind has been, I do not know any 
superintendent who has not said something to the effect of, we 
have spent more time in the last couple of years thinking about 
how to make kids learn than we ever have in our career.
    Now, the single most important change is everything we 
talked about in terms of tracking individual kids and going to 
a growth model. Without any reservation, that is the single 
most important thing we could do. It will change everything we 
do. We collect the data secondly at the classroom level. Let me 
make a very important point. The unit accountability in No 
Child Left Behind is the school but the variation in the 
quality of instruction is much greater within schools than it 
is between schools. So when we get an average score, it 
obscures the outstanding teaching and the really terrible 
teaching, the kind of teaching that harms our children. So if I 
were to go a little further, I would say growth models at which 
the data is collected at the classroom level, then we will have 
the building blocks to understand what is actually going on in 
our buildings.
    Principals are running schools, they have accountability 
and they do not know empirically what is going on inside each 
of their classrooms. This has to change and it should change 
and this technology will enable us to change.
    Chairman Kildee. Dr. Abrutyn.
    Dr. Abrutyn. The single most important thing that the 
reauthorization can do, I think, is level the playing field and 
give us a more accurate picture of success in the schools. So I 
would say moving away from the descriptor of adequate yearly 
progress and labeling schools as failing or not failing and 
moving towards the growth model would be the thing to do 
because it does level the playing field and gives us an idea of 
whether individual students are moving forward and it gives us 
the information through technology and this is the age of 
information. So we have the opportunity today to get that 
information and use it as a tool to help us move kids forward.
    Chairman Kildee. Mr. Stevenson.
    Mr. Stevenson. I would just add to what the superintendent 
said but in a larger context of equity and funding. As a native 
of South Carolina who grew up in one of the poorest school 
districts in the state and then compare myself to working and 
had an opportunity to work in a place like Radnor. My niece and 
nephew, who attend that school, take the same test that the 
students at Radnor take. The highest math in that school 
district is Algebra I. There is no honors English. There is no 
AP. So when we are talking about taking tests, you have to take 
in account the equity in relation in backgrounds of the 
students where they come from and then have them to have the 
same expectations of students who in districts that have more 
resources.
    Chairman Kildee. Thank you very much. You were hoping I 
would ask that question, I am glad I did. I think it was very, 
very helpful. For a final round or a final statement, Admiral 
Sestak.
    Mr. Sestak. Thank you. One comment and then a statement. I 
would gather in the growth model we just have to make sure that 
the growth is sufficient particularly for those that are 
further behind. And so I gather whatever that marker or 
stalking horse is, is a very important part of determining not 
just the model but the standards in that. And that would have 
to be determined.
    I would just like to say before the Chairman summarizes, 
thank you again to the Radnor High School principal and 
superintendent, to the panelists, in particular to everyone who 
took the time out of the day to come. I know if this was not 
during the school day for it to come at many times teachers 
hold these on Saturdays and others. That shows how much 
interest there that people wanted to come out. Trying to get a 
schedule to have a Chairman up here was very much appreciated. 
I cannot say thank you enough to you, sir, and I very much 
think--I learn always something from this. So I think it was a 
great panel and, again, for everyone who is here, the comments 
and statements can be submitted and I am always open, as you 
know, to getting e-mails. Just thank you. It was a very 
worthwhile time spent.
    Chairman Kildee. Thank you very much. I concur with you. 
This has been--I think you can tell yourself, this has been an 
outstanding panel. It has been very, very helpful and this will 
be helpful to us in going back to Washington to reauthorize 
this. I cannot tell you for sure what the bill is going to be 
like but we certainly have learned a lot by coming to 
Pennsylvania and listening to you and I am very glad that 
Congressman Sestak asked me to come up here. I know we may 
phase in certain things, so we had a five-year reauthorization, 
that is when I first met the present President of the United 
States, on a formal basis in the cabinet room and he and I had 
a disagreement there. We have agreed on certain things since 
and disagreed on certain things since, as I have with all the 
six Presidents that I have served since I have been in 
Congress. But the President proposes and the Congress disposes 
and we come out and listen to people like yourself who are 
really on the front line of education. We have an enormous 
responsibility, the future of this country. It depends so much 
upon what you do. We are competing in a global economy and what 
will give us the cutting edge in that competition is an 
educated and trained workforce and that is very, very 
important.
    I have already said that education is a local function. You 
have your local boards of education. It is a state 
responsibility. I know the Michigan constitution says that the 
legislature shall provide for a system of free and public 
schools. And it is a federal concern. It is a federal concern 
for two reasons. First of all, we live in a very mobile 
society. A person educated in Michigan may wind up in 
Mississippi. A person educated in Pennsylvania may wind up in 
California, vice versa. We live in a very mobile society. Plus, 
as I said, we are competing in that global economy, so it is a 
federal concern. But ultimately, it is a local function. It is 
a state responsibility and we want our federal concern not to 
suffocate you but to help you. And that is my goal. We are not 
perfect. No Child Left Behind certainly is not perfect. Quite a 
departure from the federal role before but you have been very, 
very helpful to us today.
    So I will have to use our parliamentary procedure to close 
this up since this is an official hearing. First of all, those 
of you in the audience who wish to submit, as I mentioned 
earlier, testimony for inclusion in the official record, you 
will talk to counsel, Mr. Horwich. He will give you his e-mail. 
You may e-mail that or mail it to us. And as previously ordered 
also, members of Congress, of this Committee, will have seven 
calendar days to submit additional materials for the hearing 
record. Any member who wishes to submit follow-up questions in 
writing to the witnesses, you may get some questions in 
writing, should coordinate with the majority staff within the 
requisite time. Without objection, this hearing is adjourned.
    [Whereupon, at 12:15 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
